<html>
<title> - REASSESSING THE THREAT: THE FUTURE OF AL QAEDA AND ITS IMPLICATIONS FOR HOMELAND SECURITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
REASSESSING THE THREAT: THE FUTURE OF AL QAEDA AND ITS IMPLICATIONS FOR 
                           HOMELAND SECURITY 

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2008

                               __________

                           Serial No. 110-132

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

          [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

46-632 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair

Norman D. Dicks, Washington          David G. Reichert, Washington
James R. Langevin, Rhode Island      Christopher Shays, Connecticut
Christopher P. Carney, Pennsylvania  Charles W. Dent, Pennsylvania
Ed Perlmutter, Colorado              Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2

                               Witnesses

Mr. Peter Bergen, Senior Fellow, New American Foundation:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Lawrence Wright, Fellow, NYU Center on Law and Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16


REASSESSING THE THREAT: THE FUTURE OF AL QAEDA AND ITS IMPLICATIONS FOR 
                           HOMELAND SECURITY

                              ----------                              


                        Wednesday, July 30, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Carney, Perlmutter, 
Reichert, Shays, Dent, and King.
    Also present: Representatives Pascrell and McCaul.
    Ms. Harman. The hearing will come to order.
    Good morning. The subcommittee is meeting today to receive 
testimony on ``Reassessing the Threat: The Future of Al Qaeda 
and its Implications for Homeland Security.''
    Al Qaeda is, in many respects, a different organization 
than the one that attacked New York and Washington on September 
11, 2001. It has been driven from its base in Afghanistan--
although, to some extent, it may be returning--and many of its 
leaders are either dead or in custody.
    Reports continue to surface, including those from the 
witnesses before us today, that al Qaeda may be suffering from 
internal discord and may no longer enjoy an effective top-down 
command structure. We are therefore left--and I believe this is 
the case--with a more disaggregated, horizontal organization, 
but one that may be more difficult, not less difficult, to 
fight than the top-down command-structured enemy we faced on 9/
11.
    The desire and intent of Islamic terrorists, especially al 
Qaeda, to attack us remains undiminished. Last year, the 
Director of National Intelligence released a National 
Intelligence Estimate regarding the threat of terrorism to our 
homeland. It argued that the capabilities of this loosely 
affiliated collection of groups continues to improve. 
Derivatives or copy-cat organizations are surging in places 
like North Africa, India and the United Kingdom.
    Intelligence also tells us that al Qaeda uses Pakistan's 
FATA, the federally administered tribal areas, as its new base 
of operations. Heck, everyone knows that, not just 
intelligence. Every year up to 400,000 British citizens of 
Pakistani descent travel to Pakistan for a month of vacation; a 
thousand return to the United Kingdom every day. The sheer 
number of travelers makes counterterrorism efforts incredibly 
difficult. Though I have recently been briefed on what is up, 
and I do want to commend our intelligence officials and those 
in Britain and western Europe for the efforts that they make.
    It is becoming incredibly difficult for us to define what 
``victory'' means against this, the types of threats we face. 
We all know that there will be no formal signing of surrender, 
as took place on the deck of the battleship U.S.S. Missouri, 
and no one will be dancing on the Berlin Wall, and we may not 
see anything that resembles the liberation of Kabul either.
    Preventing another major attack on U.S. soil is paramount, 
but the total eradication of all forms of terrorism may not be 
achievable. In fact, I would say it will not be achievable. The 
defeat of the short-term threats against us hopefully will 
happen, is happening, but to eradicate terrorism from the Earth 
is probably not something we will be able to do.
    Our definition of the threat will drive our strategy or 
should drive our strategy and what U.S. counterterrorism policy 
will look like in the future. Our next President will have one 
tough job to get this as right as possible.
    So our assessment of risk must be in tune with the latest 
threat developments. We must understand both the motivations 
and the capabilities of our enemies, which constantly evolve. 
We must never forget that al Qaeda is patient, willing to wait 
great lengths time of time before striking again.
    Our witnesses today are, as we often say around here, the 
gold standard. Each of them has written and talked extensively 
about the nature of the threat, the evolving nature of the 
threat. I read each of their recent articles, one in the New 
Yorker and one in The New Republic, when they were published, 
and it occurred to me that it would extraordinarily interesting 
for our members and the public to hear from them personally 
about what they have written and what their views are on it, to 
ask them some questions.
    Mr. Bergen also taught a course last semester at the 
Harvard Kennedy School. There is an article about it in the 
Christian Science Monitor today. Someone penetrated his class 
and has described the students and what they had to say for all 
of us to read.
    I do want to thank you both, though, for your efforts at 
educating the public and us about how we should consider this 
and what we need to do going forward.
    Let me just finally say--and I will introduce the witnesses 
with a little help in a few minutes--that if the threat is 
changing, and I believe it is, and if our understanding must 
change, and I believe it must, probably today's hearing is the 
place where I think each Member who is here--and we have pretty 
good attendance today, even on a busy day--is going to start to 
change her or his mind about how we should think of this. So, 
to the extent that public hearings matter here--and I think 
they do--this one, in my personal lexicon, matters a great 
deal.
    So I want to welcome you both and yield to the Ranking 
Member, Mr. Reichert, for his opening remarks.
    Mr. Reichert. Thank you, Madam Chair. Thank you for holding 
this hearing on the threat posed from al Qaeda. I will be 
brief.
    You know, I think everyone is aware and knows we are living 
in a shrinking world, all becoming closer and closer together 
in a changing world, and an ever-changing, unpredictable, 
determined and deadly enemy. It is essential that this 
committee remain focused on the terrorist threat. Thanks to 
your leadership, Madam Chair, and this subcommittee, we have 
opportunities like this to do so.
    Whether al Qaeda is a centralized organization or a loose 
affiliation bound only by ideology, the movement remains 
dangerous. While a loosely affiliated group may be less capable 
of attacking with weapons of mass destruction, properly 
targeted attacks can still be deadly, affecting our economy and 
our American way of life. The key to understanding how to 
defeat al Qaeda is to both understand their ideology and 
understand the key players, the networks and structure of their 
organization.
    I look forward to hearing from our witnesses today on their 
view of al Qaeda and on their recommendations on the way ahead.
    Thank you again, Madam Chair. I yield back the balance of 
my time.
    Ms. Harman. Thank you, Mr. Reichert.
    A couple of comments before I introduce our witnesses.
    First of all, without objection I hope, we are joined by 
two Members of the full committee, Mr. Pascrell and Mr. McCaul, 
who have asked to participate. I am asking unanimous consent 
that they be authorized to sit for the purpose of questioning 
witnesses during the hearing today.
    Hearing no objection, so ordered.
    Also, I would remind Members that all Members of the 
subcommittee, under committee rules, can submit opening 
statements for the record, should they so choose.
    So now I welcome our witnesses this morning.
    Our first witness, Peter Bergen, is a senior fellow with 
the New America Foundation in Washington, DC. He is an adjunct 
lecturer at the Kennedy School of Government at Harvard--I just 
mentioned his rock-star status in my opening remarks--and a 
research fellow at New York University's Center on Law and 
Security.
    He is a security analyst for CNN and author of ``Holy War, 
Inc.: Inside the Secret World of Bin Laden,'' a documentary 
based on the book which aired on National Geographic television 
and was nominated for an Emmy in 2002. He is also the co-author 
of ``The Unraveling,'' an article describing the jihadist 
revolt against bin Laden that appeared in last month's issue of 
The New Republic. I recommend it as reading for all our Members 
and for anyone looking in or listening in to this hearing.
    Mr. Bergen has traveled numerous times to Afghanistan, 
Pakistan, Egypt and Saudi Arabia to report on Osama bin Laden 
and al Qaeda. He is one of the few western journalists to have 
interviewed bin Laden himself. Mr. Bergen's most recent book, 
``The Osama Bin Laden I Know: An Oral History of Al Qaeda's 
Leader,'' on which CNN's 2-hour documentary, ``In the Footsteps 
of Bin Laden'' was based, is, again, something we should all 
read. He has written for a variety of other publications and is 
on the editorial board of Studies in Conflict and Terrorism.
    Our second witness, Lawrence Wright, is a fellow with the 
NYU Center on Law and Security, as well as an author, 
screenwriter, playwright, and staff writer for The New Yorker 
magazine. He is the author of the June 2008 article, ``The 
Rebellion Within: An Al Qaeda Mastermind Questions Terrorism.'' 
I think he has written the seminal book on understanding al 
Qaeda. It is called ``The Looming Tower: Al Qaeda and the Road 
to 9/11.'' We have three copies in the Harman household: one to 
lose, one to travel with, and another one on the bookshelf. I 
think that also should be required reading.
    Before going into any more detail on his resume, I would 
like to yield to the interloper on this panel, Mr. McCaul, who 
represents Mr. Wright in Texas.
    Mr. McCaul. Thank you, Madam Chair.
    I just want to join in welcoming our distinguished panel. 
This is the gold standard.
    I want to welcome specifically probably my most famous 
constituent, Larry Wright, to this committee. We look forward 
to the testimony. I appreciate all the expertise you have 
brought to this issue, as a distinguished author, a playwright, 
working for The New Yorker magazine, having taught in Cairo at 
the American University. He worked for Texas Monthly, Rolling 
Stone magazine. The resume goes on and on. I want to list a 
couple more things, though, that catch my eye.
    I think most importantly is this book right here. This is 
the authority, in my view, on al Qaeda. I worked 
counterterrorism in the Justice Department before I ran for 
Congress, and I have not seen anything more authoritative on 
this subject than this piece of work.
    I thank you for what you have done for the public to 
educate them on this issue.
    In addition, I was honored to see your play, ``My Trip to 
Al Qaeda,'' at the Kennedy Center recently, which he also did 
this at the New York festival and at Soho, really illuminating 
this topic so well.
    Finally, he serves on the Council of Foreign Relations. A 
little-known fact: In Austin, Texas, which is the live music 
capital of the world, I like to think, he also is a keyboard 
player for the blues band, Who Do. He is a very diverse, sort 
of, renaissance man, brings so much to this topic.
    Madam Chair, thank you so much for inviting him to testify 
here today.
    Mr. Shays. Are we allowed to object to anything the Member 
said?
    Ms. Harman. Reclaiming my time, without objection, the 
witnesses' full statements will be inserted in the record.
    I would now ask Mr. Bergen to summarize in 5 minutes his 
written testimony.
    Welcome, Mr. Bergen.

    STATEMENT OF PETER BERGEN, SENIOR FELLOW, NEW AMERICAN 
                           FOUNDATION

    Mr. Bergen. Madam Chair, thank you very much for this 
invitation. Thank you to the committee for allowing me to come 
here to speak.
    The subject is the future of al Qaeda. Both Lawrence Wright 
and I wrote pieces recently indicating that al Qaeda is 
internally split or there is an emerging jihadist critique of 
al Qaeda. Now, that emerging jihadist critique has actually 
been around for some period of time, but it has been amplified 
as of late.
    Now, there are basically four strategic weaknesses that al 
Qaeda has.
    First of all, it kills a lot of Muslim civilians. Muslims 
around the world are beginning to notice this, whether it is in 
Iraq or Indonesia, Saudi Arabia, Jordan, anywhere where the 
bombs have gone off. You know, it is human nature to really 
look at a problem as being somebody else's problem when it is 
not on your own doorstep. It took 9/11, arguably, for the 
United States to wake up to this problem. When bombs started 
going off in Riyadh, when bombs started going off in Anbar 
province, when bombs started going off in Amman, Jordan, when 
bombs started going off in Jakarta, Muslim civilians started 
paying attention. So their first strategic weakness is killing 
a lot of Muslim civilians.
    Second, they are not offering a positive vision of the 
future. We know what they are against, but what are they really 
for? If bin Laden was here and you asked him, if he was a 
witness, what are you trying to do, he would say the 
restoration of the Caliphate. Now, in practice, I don't think 
either Larry or I would be opposed to the restoration of the 
Caliphate as is understood by most Muslims, which is meaning 
something like the Ottoman Empire, a rather rational group of 
people that treated minorities fairly well. But what does bin 
Laden mean by restoration of the Caliphate? He means Taliban-
style theocracies from Indonesia to Morocco, and most Muslims 
don't--they have already seen what the Taliban did in 
Afghanistan, they have seen Iran under the Ayatollah, they have 
Sudan under Turabi; they know what that looks like.
    The third strategic weakness is that they have made a world 
of enemies. This is not really a winning strategy. I can't 
think of a category of institution, person or government that 
al Qaeda hasn't said they are against, whether it is 
westerners, Muslims who don't precisely share their views, 
Jews, the United Nations, the international media. The list 
goes on and on.
    Finally, it is difficult, because of the ideological views, 
it is very hard for al Qaeda or its affiliates, almost 
impossible, for them to turn themselves into real political 
movements, because they can't make the kind of real-world 
political compromises that actually allows you to engage in the 
kind of compromises that, really, politics is all about.
    So given these four strategic problems, which any one of 
these would be very, very difficult for any movement to deal 
with, the long-term prognosis for al Qaeda is incredibly poor.
    However, Chair Harman mentioned the NIE. Now, how do we 
square the fact that there is a submerging jihadi critique, not 
from ``moderate,'' Muslims, who, after all, aren't going be to 
very persuasive for the people who are tempted to join al 
Qaeda, but from within the ranks of the people who are the 
ideological godfathers of al Qaeda, from within the ranks of 
people who fought with bin Laden, they are the people who are 
publicly criticizing al Qaeda now.
    How do you square the fact that they are losing this long-
term ideological battle with the NIE that says al Qaeda is 
resurging on the Afghan-Pakistan border? I think both things 
are true. These are not either/or categories. They are losing 
the longer-term ideological battle, but along the Afghan-
Pakistan border they are regrouping from a military point of 
view as a terrorist organization and also as an insurgent 
organization.
    Just to give you some quick pieces of evidence for that in 
the 2 minutes I have left, the London attack of July 7, 2005, 
was an al Qaeda-directed operation. The planes followed in the 
summer of 2006, where 1,500 Americans, Canadians and Britons 
would have been blown up in seven planes was an al Qaeda-
directed operation. What is going in Afghanistan is, to some 
degree, al Qaeda's responsibility because the Taliban at its 
higher levels has adopted al Qaeda's ideology and tactics 
wholesale.
    Fourth, obviously, al Qaeda-in-Iraq is taking some hits, 
but it would be very, very premature to declare them dead as a 
terrorist organization. As an insurgent organization that holds 
territory, they are out of business. But as a terrorist 
organization, as we just saw yesterday with the three female 
suicide attackers, they can continue to be an important spoiler 
in Iraq for the foreseeable future.
    Obviously, what is going on in Pakistan--Pakistan had more 
suicide attacks in 2007 than in its collective previous 
history. Then also we are seeing, obviously, the fact that bin 
Laden and Ayman al-Zawahiri are still out there, are still able 
to produce tapes--and I will make one prediction: that bin 
Laden, unable to attack United States for at least in the 
short- or medium-term, will come out with a videotape in the 
run-up to this election in which he will say, ``It doesn't 
matter if you elect McCain or Obama. You, the American people, 
need to change the American Government policies all around the 
Muslim world.'' I think we can almost guarantee that he will 
produce that kind of tape.
    By the way, that produces a rather strong opportunity for 
the United States, because the tape is traceable, and, after 
all, there is a chain of custody of people who carry the tape 
out to an Internet web site, there are also people who film 
this.
    But, anyway, that is a snapshot, I think, of al Qaeda's 
continued resurgence as a military and terrorist and insurgent 
organization. But in the long term, they are losing this 
ideological struggle. I think, parenthetically, I think their 
ability to attack the United States directly in the next 5 
years is extremely low.
    [The statement of Mr. Bergen follows:]
                   Prepared Statement of Peter Bergen
                             July 30, 2008
             i. long-term strategic weaknesses of al qaeda
(With thanks to Paul Cruickshank of New York University's Center on Law 
        & Security for his input in this section).
    After September 11, there was considerable fear in the West that we 
were headed for a clash of civilizations with the Muslim world led by 
Osama bin Laden, who would entice masses of young Muslims into his 
jihadist movement. But the religious leaders and former militants who 
are now critiquing al Qaeda's terrorist campaign--both in the Middle 
East and in Muslim enclaves in the West--make that less likely. The 
potential repercussions for al Qaeda cannot be underestimated because, 
unlike most mainstream Muslim leaders, al Qaeda's new critics have the 
jihadist credentials to make their criticisms bite.
    Why have clerics and militants once considered allies by al Qaeda's 
leaders turned against them? To a large extent, it is because al Qaeda 
and its affiliates have increasingly adopted the doctrine of taqfir, by 
which they claim the right to decide who is a ``true'' Muslim. Al 
Qaeda's Muslim critics know what results from this taqfiri view: First, 
the radicals deem some Muslims apostates; after that, the radicals 
start killing them. This fatal progression happened in both Algeria and 
Egypt in the 1990's. It is now taking place even more dramatically in 
Iraq, where al Qaeda's suicide bombers have killed more than 10,000 
Iraqis, most of them targeted simply for being Shia. Recently, al Qaeda 
in Iraq has turned its fire on Sunnis who oppose its diktats, a fact 
not lost on the Islamic world's Sunni majority.
    Additionally, al Qaeda and its affiliates have killed thousands of 
Muslim civilians elsewhere since September 11: hundreds of ordinary 
Afghans killed every year by the Taliban, dozens of Saudis killed by 
terrorists since 2003, scores of Jordanians massacred at a wedding at a 
U.S. hotel in Amman in November 2005. Even those sympathetic to al 
Qaeda have started to notice. ``Excuse me Mr. Zawahiri but who is it 
who is killing with Your Excellency's blessing, the innocents in 
Baghdad, Morocco and Algeria?'' one supporter asked in an online Q&A 
with al Qaeda's deputy leader in April that was posted widely on 
jihadist web sites. All this has created a dawning recognition among 
Muslims that the ideological virus that unleashed September 11 and the 
terrorist attacks in London and Madrid is the same virus now wreaking 
havoc in the Muslim world, a trend that Paul Cruickshank of NYU's 
Center on Law & Security and I detailed in a cover story in The New 
Republic called ``The Unraveling'' in June 2008.
    Around the sixth anniversary of September 11, al Qaeda received a 
blow from one of bin Laden's erstwhile heroes, Sheikh Salman Al Oudah, 
a Saudi religious scholar. Al Oudah addressed al Qaeda's leader on MBC, 
a widely watched Middle East TV network: ``My brother Osama, how much 
blood has been spilt? How many innocent people, children, elderly, and 
women have been killed . . . in the name of al Qaeda? Will you be happy 
to meet God Almighty carrying the burden of these hundreds of thousands 
or millions [of victims] on your back?''
    What was noteworthy about Al Oudah's statement was that it was not 
simply a condemnation of terrorism, or even of September 11, but that 
it was a personal rebuke, which clerics in the Muslim world have shied 
away from. In Saudi Arabia in February, I met with Al Oudah, who rarely 
speaks to Western reporters. Dressed in the long black robe fringed 
with gold that is worn by those accorded respect in Saudi society, Al 
Oudah recalled meeting with bin Laden--a ``simple man without scholarly 
religious credentials, an attractive personality who spoke well,'' he 
said--in the northern Saudi region of Qassim in 1990. Al Oudah 
explained that he had criticized al Qaeda for years but until now had 
not directed it at bin Laden himself: ``Most religious scholars have 
directed criticism at acts of terrorism, not a particular person. . . . 
I don't expect a positive effect on bin Laden personally as a result of 
my statement. It's really a message to his followers.''
    Al Oudah's rebuke was also significant because he is considered one 
of the fathers of the Sahwa, the fundamentalist awakening movement that 
swept through Saudi Arabia in the 1980's. His sermons against the U.S. 
military presence in Saudi Arabia following Saddam Hussein's 1990 
invasion of Kuwait helped turn bin Laden against the United States. And 
bin Laden told me in 1997 that Al Oudah's 1994 imprisonment by the 
Saudi regime was one of the reasons he was calling for attacks on U.S. 
targets. Al Oudah is also one of 26 Saudi clerics who, in 2004, handed 
down a religious ruling urging Iraqis to fight the U.S. occupation of 
their country. He is, in short, not someone al Qaeda can paint as an 
American sympathizer or a tool of the Saudi government.
    Tellingly, al Qaeda has not responded to Al Oudah's critique, but 
the research organization Political Islam Online tracked postings on 
six Islamist web sites and the web sites of Al Jazeera and Al Arabiya 
TV networks in the week after Al Oudah's statements; it found that more 
than two-thirds of respondents reacted favorably.
    More doubt about al Qaeda was planted in the Muslim world when 
Sayyid Imam Al Sharif, the ideological godfather of al Qaeda, 
sensationally withdrew his support in a book written last year from his 
prison cell in Cairo. Al Sharif, generally known as ``Dr. Fadl,'' was 
an architect of the doctrine of taqfir, arguing that Muslims who did 
not support armed jihad or who participated in elections were kuffar, 
unbelievers.
    So it was an unwelcome surprise for al Qaeda's leaders when Dr. 
Fadl's new book, Rationalization of Jihad, was serialized in an 
independent Egyptian newspaper in November. The incentive for writing 
the book, he explained, was that ``jihad . . . was blemished with grave 
Sharia violations during recent years. . . . [N]ow there are those who 
kill hundreds, including women and children, Muslims and non Muslims in 
the name of Jihad!'' Dr. Fadl ruled that al Qaeda's bombings in Egypt, 
Saudi Arabia, and elsewhere were illegitimate and that terrorism 
against civilians in Western countries was wrong. He also took on al 
Qaeda's leaders directly in an interview with the Al Hayat newspaper. 
``[Ayman al] Zawahiri and his Emir bin Laden [are] extremely immoral,'' 
he said. ``I have spoken about this in order to warn the youth against 
them, youth who are seduced by them, and don't know them.''
    Dr. Fadl's harsh words attracted attention throughout the Arabic-
speaking world; even a majority of Zawahiri's own Jihad group jailed in 
Egyptian prisons signed on and promised to end their armed struggle. In 
December, Zawahiri released an audiotape lambasting his former mentor, 
accusing him of being in league with the ``bloodthirsty betrayer'' 
Egyptian President Hosni Mubarak; and, in a 200-page book titled The 
Exoneration, published in March, he replied at greater length, 
portraying Dr. Fadl as a prisoner trying to curry favor with Egypt's 
security services and the author of ``a desperate attempt (under 
American sponsorship) to confront the high tide of the jihadist 
awakening.''
    Is al Qaeda going to dissipate as a result of the criticism from 
its former mentors and allies? Despite the recent internal criticism, 
probably not in the short term. Last summer, U.S. intelligence agencies 
judged that al Qaeda had ``regenerated its [U.S.] Homeland attack 
capability'' in Pakistan's tribal areas. Since then, al Qaeda and the 
Taliban have only entrenched their position further, launching a record 
number of suicide attacks in Pakistan in the past year. Afghanistan, 
Algeria, and Iraq also saw record numbers of suicide attacks in 2007 
(though the group's capabilities have deteriorated in Iraq of late). 
Meanwhile, al Qaeda is still able to find recruits in the West. In 
November, Jonathan Evans, the head of Britain's domestic intelligence 
agency MI5, said that record numbers of U.K. residents are now 
supportive of al Qaeda, with around 2,000 posing a ``direct threat to 
national security and public safety.'' That means that al Qaeda will 
threaten the United States and its allies for many years to come.
    However, encoded in the DNA of apocalyptic jihadist groups like al 
Qaeda are the seeds of their own long-term destruction: Their victims 
are often Muslim civilians; they don't offer a positive vision of the 
future (but rather the prospect of Taliban-style regimes from Morocco 
to Indonesia); they keep expanding their list of enemies, including any 
Muslim who doesn't precisely share their world view; and they seem 
incapable of becoming politically successful movements because their 
ideology prevents them from making the real-world compromises that 
would allow them to engage in genuine politics.
    Which means that the repudiation of al Qaeda's leaders by its 
former religious, military, and political guides will help hasten the 
implosion of the jihadist terrorist movement. As Churchill remarked 
after the battle of El Alamein in 1942, which he saw as turning the 
tide in World War II, ``[T]his is not the end. It is not even the 
beginning of the end. But it is, perhaps, the end of the beginning.''
    These new critics, in concert with mainstream Muslim leaders, have 
created a powerful coalition countering al Qaeda's ideology. According 
to Pew polls, support for al Qaeda has been dropping around the Muslim 
world in recent years. The numbers supporting suicide bombings in 
Indonesia, Lebanon, and Bangladesh, for instance, have dropped by half 
or more in the last 5 years. In Saudi Arabia, only 10 percent now have 
a favorable view of al Qaeda, according to a December poll by Terror 
Free Tomorrow, a Washington-based think tank. Following a wave of 
suicide attacks in Pakistan in the past year, support for suicide 
operations amongst Pakistanis has dropped to 9 percent (it was 33 
percent 5 years ago).
    Unsurprisingly, al Qaeda's leaders have been thrown on the 
defensive. In December, bin Laden released a tape that stressed that 
``the Muslim victims who fall during the operations against the infidel 
Crusaders . . . are not the intended targets.'' Bin Laden warned the 
former mujahedin now turning on al Qaeda that, whatever their track 
records as jihadists, they had now committed one of the ``nullifiers of 
Islam,'' which is helping the ``infidels against the Muslims.''
       ii. what is the status of al qaeda the organization today?
Despite the fact that al Qaeda, as described above, is losing the long-
        term ideological battle, the group has rebuilt its capacity as 
        an insurgent/terrorist organization along the Afghan-Pakistan 
        border and remains capable of launching large-scale terrorist 
        attacks in the West.
Evidence for the resiliency of the al Qaeda organization.
            1. The London attacks of July 2005, and al Qaeda's alarming 
                    reach into the United Kingdom.
    The London bombings on July 7, 2005 were a classic al Qaeda plot. A 
British government report published in 2006 explains that the 
ringleader, Mohammed Siddique Khan, visited Afghanistan in the late 
1990's and Pakistan on two occasions in 2003 and 2004, spending a total 
of several months in the country. The report goes on to note that Khan 
``had some contact with al Qaida figures'' in Pakistan, and is 
``believed to have had some relevant training in a remote part of 
Pakistan, close to the Afghan border'' during his 2-week visit in 2003. 
According to the report, Khan was also in ``suspicious'' contact with 
individuals in Pakistan in the 4 months immediately before he led the 
London attacks.
    Further, Khan appeared on a videotape that aired on Al Jazeera 2 
months after the attacks. On that tape Khan says ``I'm going to talk to 
you in a language that you understand. Our words are dead until we give 
them life with our blood.'' He goes on to describe Osama bin Laden and 
his deputy Ayman al-Zawahiri as ``today's heroes.'' Khan's statements 
were made on a videotape that bore the distinctive logo of As Sahab, 
``The Clouds,'' which is the television production arm of al Qaeda. 
Khan's appearance on the As Sahab videotape shows that he met up with 
members of al Qaeda's media team who are based on the Afghan-Pakistan 
border. In 2006 a similar videotape of another one of the London 
suicide bombers appeared also made by As Sahab, further evidence of al 
Qaeda's role in the bombings.
    The grim lesson of the London attack is that al Qaeda was able to 
conduct simultaneous bombings in a major European capital thousands of 
miles from its base on the Afghan-Pakistan border. While far from a 9/
11-style attack, the London bombings showed the kind of planning and 
ability to hit targets far from its home base seen in pre-9/11 al Qaeda 
attacks such as the one mounted on the U.S.S. Cole in Yemen in 2000. Al 
Qaeda has therefore recovered sufficient strength that it can now 
undertake multiple, successful bombings aimed at targets in the West.
    Similarly, the plot that was foiled in the United Kingdom in August 
2006 to bring down half a dozen American airliners with liquid 
explosives, an event that would have rivaled 9/11 in magnitude had it 
succeeded, was directed by al Qaeda from Pakistan, according to the 
January 2007 testimony of Lt. General Michael Maples, head of the U.S. 
Defense Intelligence Agency.
            2. The vitality of al Qaeda's propaganda division, As 
                    Sahab.
    Bin Laden has observed that 90 percent of his battle is conducted 
in the media. Al Qaeda understands that what the Pentagon calls IO 
(Information Operations) are key to its successes. As Sahab's first 
major production debuted on the Internet in the summer of 2001 
signaling a major anti-American attack was in the works. Since then, As 
Sahab has continued to release key statements from al Qaeda's leaders 
and has significantly increased its output in the last year or so. In 
2007 As Sahab released more audio and videotapes than any year in its 
6-year history; at least 80. These tapes are increasingly sophisticated 
productions with subtitles in languages such as English, animation 
effects and studio settings. As Sahab's increasingly sophisticated and 
regular output is evidence that al Qaeda has recovered to a degree that 
it is capable of managing a relatively advanced propaganda operation. 
That operation is unlikely to have a fixed studio location, but it does 
include a number of cameramen as well as editors using editing programs 
such as Final Cut Pro on laptops.
            3. The continuing influence of bin Laden and Zawahiri.
    Bin Laden may no longer be calling people on a satellite phone to 
order attacks, but he remains in broad ideological and strategic 
control of al Qaeda around the world. An indicator of this is that in 
2004, Abu Musab al-Zarqawi, the then-leader of foreign fighters in Iraq 
renamed his organization ``al Qaeda in the Land of the Two Rivers'' and 
publicly swore bayat, a religiously binding oath of allegiance, to bin 
Laden.
    Moreover, the dozens of video and audiotapes that bin Laden and 
Zawahiri have released since 9/11 have reached hundreds of millions of 
people worldwide through television, newspapers and the Internet, 
making them among the most widely distributed political statements in 
history. Those tapes have not only had the effect of instructing al 
Qaeda's followers to kill Americans, Westerners and Jews, but some 
tapes have also carried specific instructions that militant cells have 
acted upon. For instance, on October 19, 2003 bin Laden called for 
action against Spain because of its troop presence in Iraq, the first 
time that al Qaeda's leader had singled out the country. Six months 
later, terrorists killed 191 commuters in Madrid. And in the spring of 
2004, bin Laden offered a 3-month truce to European countries willing 
to pull out of the coalition in Iraq. Almost exactly a year after his 
truce offer expired, an al Qaeda-directed cell carried out bombings on 
London's public transportation system that killed 52 commuters. In 
December 2004, bin Laden called for attacks on Saudi oil facilities and 
in February 2006, al Qaeda in Saudi Arabia attacked the Abqaiq 
facility, arguably the most important oil production facility in the 
world. (That attack was a failure.)
            4. Al Qaeda's influence in Iraq.
    For the moment, al Qaeda in Iraq is a wounded organization. The 
number of foreign fighters coming in to Iraq has declined from 120 a 
month in 2007 to around 25 today. According to the U.S. military 
foreign fighters are now trying to leave the country.
    However, future withdrawals of U.S. troops from Iraq will obviously 
help al Qaeda's ability to operate in the country. Al Qaeda also has a 
``paper tiger'' narrative about the United States based on American 
pullouts from Vietnam during the 1970's, Lebanon in the 1980's and 
Somalia in the 1990's. American drawdowns from Iraq will be seen as 
confirming this narrative.
            5. Al Qaeda continues to attract other militant groups to 
                    its standard.
    In addition to al Qaeda in Iraq stating on several occasions over 
the past 3 years that it takes overall direction from al Qaeda central, 
in September 2006 the Algerian Salafist Group for Call and Combat 
(GSPC) announced that it was putting itself under the al Qaeda 
umbrella, re-branding itself al Qaeda in the Islamic Mahgreb (AQIM). 
GSPC is considered the most significant terrorist movement in Algeria. 
Abu Musab Abdul Wadud, the leader of the GSPC explained that ``the 
organization of al-Qaeda of Jihad is the only organization qualified to 
gather together the mujahideen.''
            6. The rapidly deteriorating security situation in 
                    Afghanistan over the past year is, at least in 
                    part, the responsibility of al Qaeda.
    The use of suicide attacks, improvised explosive devices and the 
beheadings of hostages--all techniques that al Qaeda perfected in 
Iraq--are methods that the Taliban has increasingly adopted in 
Afghanistan, making much of the south of the country a no-go area. 
Hekmat Karzai, an Afghan terrorism researcher points out suicide 
bombings were virtually unknown in Afghanistan until 2005 when there 
were 21 such attacks. U.S. sources say there were 139 suicide attacks 
in 2007.
    Mullah Dadullah, a key Taliban commander gave two interviews to Al 
Jazeera in 2006 before he was killed, in which he made some 
illuminating observations about the Taliban's links to al Qaeda. 
Dadullah said, ``We have close ties. Our cooperation is ideal,'' adding 
that Osama bin Laden is issuing orders to the Taliban. Indeed, a senior 
U.S. military intelligence official says that ``trying to separate 
Taliban and al Qaeda in Pakistan serves no purpose. It's like picking 
gray hairs out of your head.'' Dadullah also noted that ``we have `give 
and take' relations with the mujahideen in Iraq.
            7. Pakistan.
    To the extent that al Qaeda has a new base, it is in Pakistan. From 
there bin Laden and Zawahiri have released a stream of audio and 
videotapes. Evidence of al Qaeda's growing strength in Pakistan can 
also be seen in the advice and personnel it is offering the Taliban in 
its campaign of suicide attacks in Afghanistan. al Qaeda today 
clandestinely operates small training camps in Pakistan, ``People want 
to see barracks. [In fact] the camps use dry riverbeds for shooting and 
are housed in compounds for 20 people where they are taught 
calisthenics and bomb making'' says a senior U.S. military intelligence 
official.
    The fact that Pakistan is the new training ground for al Qaeda 
recruits indicates that the organization will continue to be a 
significant threat. Terrorist plots have a much higher degree of 
success if some of the cell's members have received training in bomb-
making and operational doctrine in person. For example, two of the 
London July 7, 2005 suicide bombers received al Qaeda training in 
Pakistan.
          iii. the future of al qaeda over the next five years
1. The leadership.
    The single biggest variable about the future of al Qaeda is what 
happens to bin Laden. For 6 years he has already survived the most 
intense manhunt in history. It would be wishful thinking to believe 
that he won't survive another 5 years. However, if he were to be 
captured or killed that would have a devastating effect on al Qaeda.
    On several occasions bin Laden has said that he's prepared to die 
in his holy war--statements that should be taken at face value. In the 
short-term, bin Laden's death would likely trigger violent anti-
American attacks around the globe, while in the medium term, his death 
would deal a serious blow to al Qaeda as bin Laden's charisma and 
organizational skills have played a critical role in its success. 
However, bin Laden does have 11 sons, some of whom might choose to go 
into their father's line of work.
    Should bin Laden be captured or killed, that would likely trigger a 
succession battle within al Qaeda. While Zawahiri is technically bin 
Laden's successor, he is not regarded as a natural leader. Indeed, even 
among the Egyptians within al Qaeda Zawahiri is seen as a divisive 
force. The loss of bin Laden would likely challenge the unity of the 
organization, a unity that al Qaeda's internal documents indicate has 
often been fragile.
2. Haven on the Afghan-Pakistan border, and al Qaeda's ideology and 
        tactics increasingly being adopted by the Taliban.
    The Pakistani military and its intelligence agency ISI have proven 
either unwilling, incapable, or both of destroying al Qaeda and its 
Taliban allies in their country.
    Unless the Pakistani government takes real action the safe havens 
that Taliban and al Qaeda enjoy in Pakistan are unlikely to be 
extirpated unless there is a significant attack in the United States or 
United Kingdom that is traceable to the tribal areas, and subsequent 
intense political pressure from those countries results in the measures 
necessary to destroy the militant organizations and movements in 
Pakistan.
    This has unfortunate implications for countries with large 
Pakistani diaspora populations such as the United Kingdom, whose 
citizens make 400,000 visits to Pakistan each year. A tiny minority of 
those visitors end up training with terrorist groups in Pakistan 
including al Qaeda. That problem is less pronounced in North America 
and Europe where Pakistanis make up a relatively small proportion of 
the Muslim population, but already in Spain and France, terrorism cases 
involving Pakistani immigrants are emerging.
    In addition, the Taliban on both sides of the Afghan-Pakistan 
border are increasingly identified as the true guardian of Pashtun 
rights, but at the same time they have also increasingly adopted both 
al Qaeda tactics and ideology. As the Taliban and al Qaeda merge both 
tactically and ideologically, this could give al Qaeda a political 
constituency of sorts. This is worrisome as the Pashtun tribal 
grouping--the largest such grouping in the world--numbers some 40 
million people on both sides of the border.
    Further, should Afghanistan slide into chaos--at this moment a real 
possibility--that would also benefit al Qaeda as it would increase the 
number of safe havens along the border regions.
3. The influence of European militants in al Qaeda.
    The Islamist terrorist threat to the United States today largely 
emanates from Europe, not from domestic sleeper cells or--as is 
popularly imagined--the graduates of Middle Eastern madrassas who can 
do little more than read the Koran. Omar Sheikh, for instance, the 
kidnapper of Wall Street Journal reporter Daniel Pearl, is a British 
citizen of Pakistani descent who studied at the academically rigorous 
London School of Economics. The 9/11 pilots became more militant while 
they were students in Hamburg. Indeed, Robert Leiken of the Nixon 
Center has found that of 373 Islamist terrorists arrested or killed in 
Europe and the United States from 1993 through 2004 an astonishing 41 
percent were Western nationals, who were either naturalized or second 
generation Europeans or converts to Islam. Leiken found more terrorists 
who were French than the combined totals of Pakistani and Yemeni 
terrorists!
    Future terrorist attacks that will be damaging to American national 
security are therefore likely to have a European connection. Citizens 
of the European Union, who adopt al Qaeda's ideology, can both easily 
move around Europe and also have easy entry into the United States 
because of the Visa Waiver Program that exists with European countries.
    The most likely perpetrators of another major terrorist attack on 
American soil come from an unexpected quarter: Citizens of the United 
States' closest ally. Militant British citizens of Pakistani descent 
are the most significant terrorist threat facing the United States. 
Most of those arrested in the 2006 plot to bring down American 
airliners over the Atlantic, for instance, were young British 
Pakistanis.
4. Tactics and Targeting al Qaeda will use in the future.
            a. Attacking Western economic targets, particularly the oil 
                    industry.
    Since the 9/11 attacks, al Qaeda and its affiliated groups have 
increasingly attacked economic and business targets. The shift in 
tactics is in part a response to the fact that the traditional pre-9/11 
targets, such as American embassies, war ships, and military bases, are 
now better defended, while so-called ``soft'' economic targets are both 
ubiquitous and easier to hit.
    Al Qaeda and its affiliated terrorist groups are also increasingly 
targeting companies that have distinctive Western brand names. In 2003, 
suicide attackers bombed the Marriott hotel in Jakarta. The same year 
in Karachi, a string of small explosions at 18 Shell stations wounded 
four, while in 2002 a group of a dozen French defense contractors were 
killed as they left a Sheraton hotel, which was heavily damaged. In 
October 2004 in Taba, Egyptian jihadists attacked a Hilton Hotel. In 
Amman, Jordan in November 2005, al Qaeda in Iraq attacked three 
American-owned hotels--the Grand Hyatt, Radisson and Days Inn--killing 
60 people. Around the same time a Kentucky Fried Chicken was attacked 
in Karachi killing three.
    Al Qaeda attacks on oil facilities accelerated sharply beginning in 
2004. Suicide bombers struck Iraq's principal oil terminal in Basra on 
April 21, 2004. In Yanbu, Saudi Arabia, al Qaeda's Saudi Arabia 
affiliate attacked the offices of ABB Lummus Global, a contractor for 
Exxon/Mobil, on May 1, 2004 killing six Westerners. As noted above, in 
February 2006, al Qaeda in Saudi Arabia unsuccessfully attacked the 
Abqaiq facility, perhaps the most important oil production facility in 
the world. al Qaeda will continue its attacks on oil installations, 
pipelines, and oil workers for the foreseeable future in both Saudi 
Arabia and Iraq, the two countries that happen to sit on the largest 
oil reserves in the world.
            b. Attacking Israeli/Jewish targets
    Attacking Jewish and Israeli targets is an al Qaeda strategy that 
has only emerged strongly post-9/11. Despite bin Laden's declaration in 
February 1998 that he was creating the ``World Islamic Front against 
the Crusaders and the Jews,'' al Qaeda only started attacking Israeli 
or Jewish targets in early 2002. Since then, al Qaeda and its 
affiliated groups have directed an intense campaign against Israeli and 
Jewish targets, killing journalist Daniel Pearl in Karachi, bombing 
synagogues in Tunisia and Turkey, and attacking an Israeli-owned hotel 
in Mombasa, Kenya, which killed 13. At the same time as the attack on 
the Kenyan hotel, al Qaeda also tried to bring down an Israeli 
passenger jet with rocket propelled grenades, an attempt that was 
unsuccessful. In the future, al Qaeda will likely intensify its 
campaign of attacking Jewish and Israeli targets.
5. Tactics that al Qaeda is likely to deploy in the next 5 years that 
        it has hitherto not used successfully.
    There are two tactics that al Qaeda might successfully deploy in 
the next 5 years that for differing reasons would have significant 
detrimental effects on American interests. Both tactics are well within 
the capabilities of the organization so they do not represent Chicken 
Little scenarios (such as the use of nuclear devices).
    The first tactic is the use of RPGs (Rocket Propelled Grenades) or 
SAMs (Surface to Air Missiles) to bring down a commercial jetliner. As 
mentioned above, al Qaeda already attempted such an attack against an 
Israeli passenger jet in Kenya in 2002. That attempt almost succeeded. 
A successful effort by al Qaeda to bring down a commercial passenger 
jet anywhere in the world would have a devastating effect on both 
global aviation and tourism.
    The second tactic would be the deployment of a radiological bomb 
attack, most likely in a European city. Such an attack would have a 
much greater ability to terrorize than the small-scale chemical and 
biological attacks that terrorists have mounted in the past, as it 
would seem to most observers that the terrorists had ``gone nuclear'' 
even though, of course, a radiological bomb is nothing like a nuclear 
device.
6. Al Qaeda's strategy over the next 5 years.
    As al Qaeda's No. 2, Ayman al Zawahiri, explained shortly after 9/
11 in his autobiographical Knights Under the Prophet's Banner, the most 
important strategic goal of al Qaeda is to seize control of a state, or 
part of a state, somewhere in the Muslim world. He writes, 
``Confronting the enemies of Islam, and launching jihad against them 
require a Muslim authority, established on a Muslim land that raises 
the banner of jihad and rallies the Muslims around it. Without 
achieving this goal our actions will mean nothing.'' Such a jihadist 
state would then become a launching pad for attacks on the American 
homeland. We have seen al Qaeda do this once before in Afghanistan. Now 
the goal is to establish a jihadist mini-state in Iraq, in the heart of 
the Middle East, rather than on the periphery of the Muslim world as al 
Qaeda was able to do under the Taliban. This will be al Qaeda's main 
strategic goal for the next few years.
    Another key goal will be to maintain their base on the Afghan-
Pakistan border. Al Qaeda seeks a safe haven that replicates some of 
the features of its Afghan haven before the fall of the Taliban. The 
tribal areas along Pakistan's western border are proving a congenial 
place for al Qaeda to regroup.
    Al Qaeda's aim in the next 5 years will also be to stay relevant 
and to stay in the news. The organization will be opportunistic in 
spinning hot-button issues for Muslims around the world for their 
purposes, as they did during the Danish cartoon controversy and the 
month-long conflict in Lebanon in 2006.
    It's possible that al Qaeda may also seek to aim more attacks at 
Christians in the coming years. Attacks on the Pope both verbal and 
literal should be expected.
    The situation in Darfur is also likely to be a flashpoint. Al Qaeda 
seems to view western humanitarian interventions in Darfur in the same 
way as it viewed the humanitarian mission in Somalia in the early 
1990's--as a western attempt to colonize Muslim lands. Al Qaeda 
fighters are likely to become embroiled in the Darfur conflict in the 
next few years.
7. Will al Qaeda (rather than ``homegrown'' terrorists) be able to 
        attack the United States itself in the next 5 years?
    In my view it is a low-level probability that al Qaeda will be able 
to attack the United States in the next 5 years.
    In the past, when al Qaeda terrorists have tried or succeeded to 
launch attacks in the United States they have done so only after 
arriving from somewhere else. Ahmed Ressam for instance, who lived in 
Canada before he tried to blow up Los Angeles International airport in 
December 1999, was an Algerian who had trained with al Qaeda in 
Afghanistan. Similarly, the 19 9/11 hijackers hailed from countries 
around the Middle East. Ramzi Yousef, the mastermind of the first World 
Trade Center attack in 1993 that killed six, was a Pakistani who had 
also trained in an al Qaeda camp. None of these attackers relied on al 
Qaeda ``sleeper cells'' in the United States and there is no evidence 
that such cells exist today. Moreover, the United States is a much 
harder target than it was before 9/11, and the ability of an al Qaeda 
terrorist to enter the country and mount a successful operation has 
been greatly diminished by U.S. government actions, the heightened 
awareness of the American public, and the weaker state of al Qaeda 
itself. This is not, however, to imply that American homegrown 
terrorists inspired by al Qaeda might not carry out a small-bore terror 
attack inside the United States in the next 5 years.
    Of course, al Qaeda itself remains quite capable of attacking a 
wide range of American economic interests overseas, killing U.S. 
soldiers in Iraq and Afghanistan, and targeting U.S. diplomatic 
facilities in Asia, the Indian subcontinent and the Middle East.
    iv. steps that the intelligence community and homeland security 
     officials can take to help eliminate the threat from al qaeda
(With thanks to Laurence Footer of the Foundation for the Defense of 
        Democracies who helped with the formulation of these ideas.)
    1. Without Fanfare Redouble Efforts to Find Bin Laden.--Given the 
continued importance of bin Laden, the bin Laden unit at CIA should be 
reopened and be run by one person who reports to the Director of 
National Intelligence to coordinate all CIA activities related to 
capturing or killing bin Laden with the Department of Defense, Central 
Intelligence Agency, State Department, and foreign intelligence 
services. Similar units should be set up targeting Ayman Zawahiri and 
Mullah Omar. These steps should be taken without fanfare so as to avoid 
providing al Qaeda with a propaganda victory.
    2. Learn to Speak Their Language.--As illustrated by the fact that 
only three dozen FBI agents speak any Arabic at all, a new emphasis 
must be placed on teaching Arabic, Farsi, Pashtu, Bengali, Indonesian, 
Urdu and Punjabi. The funding at the Defense Language Institute (DLI) 
should be adjusted to support an increase in the number of students 
annually from 2,000 to 5,000 with an emphasis on these targeted 
languages. As language skills are perishable, on-going investments in 
language maintenance should be made for DLI graduates. DLI's activities 
should both be coordinated with colleges and universities to attract 
new students as well as web-enabled to facilitate remote learning 
through on-line training. In order to increase the number of teachers, 
a National Language Institute should be created to train tomorrow's 
language instructors. Tuition grants and other financing should also be 
increased to reward students for reaching fluency in desired languages.
    3. Streamline and ``Smart-line'' the Security Clearance Process.--
Certain hiring procedures which are relics of the Cold War have created 
obstacles to recruiting new talent. To make it easier for intelligence 
agencies to hire linguists and country experts, the President should 
mandate the streamlining of the hiring process, especially those 
background check policies that exclude new hires simply because they 
have lived in foreign countries. Right now, the process is too onerous 
and time-consuming, turning off potential recruits who are required to 
wait a year or more for clearances. The process needs to be ``smart-
lined.''
    4. Report on Metrics.--To monitor public opinion, democracy-
promotion, nation-building and terrorism metrics, an Office of Metrics 
should be created at the Department of National Intelligence. To inform 
policy, this new office should provide regular briefings to the public 
and Congress. The United States will know it is gaining ground when the 
following results occur: Consistent declines in the number of attempted 
Jihadist attacks; fewer terrorist and insurgent safe havens in the 
Muslim world; a rise in the level of good governance and open societies 
in the Muslim world; a steady rise in the number of leading Muslim 
figures critiquing al Qaeda and its affiliates; a falling number of 
jihadi web sites and level of jihadi Internet activity; a continuing 
drop in support of suicide bombings in the Muslim world; a constant 
decrease in the level of support for militant jihad ideology; an 
improvement in world public opinion of the United States; and a 
decrease in the cost of counterinsurgency and counterterrorism 
operations.
    5. Hydrogen Peroxide Controls.--The U.S. Government should increase 
the monitoring of sales of industrial strength hydrogen peroxide, as it 
was the weapon of choice for terrorists in the London 7/7 2005 
bombings, the failed plot against American airliners in the summer of 
2006 in the United Kingdom, and the failed attack directed at a U.S. 
base in Germany in 2007.
    6. Universal Database to Trace and Track Foreign Fighters, 
Insurgents and Terrorists.--More than 6 years after the September 11 
attacks, the U.S. Government still does not maintain an integrated 
database of jihadists (foreign fighters, insurgents and terrorists). 
The database needs, above all, to map the ``facilitative nodes'' that 
bring young men (and increasingly young women) into the jihad, such as 
web sites, operational planners, financiers, and jihadist underground 
networks. A building block of such a database should be identifying the 
suicide attackers in Afghanistan, Pakistan and Iraq, a process that can 
be accomplished using DNA samples, accounts on jihadist web sites, good 
intelligence work, and media reports. We know from former CIA officer 
Marc Sageman's investigations of the histories of hundreds of jihadist 
terrorists that friends and family are the ways most terrorists join 
the global jihad, and so this investigatory work should include an 
effort to identify friends and/or family members who brought the 
suicide attackers into the jihad.
    Mapping the social networks of the terrorists, as outlined above, 
must also include identification of the clerical mentors of the suicide 
attackers, as it seems likely that only a relatively small number have 
persuaded their followers of the religious necessity of martyrdom. 
Armed with that intelligence, the United States and NATO can turn to 
the government of Pakistan where most of the suicide attackers in 
Afghanistan originate, and insist that it reins in particularly 
egregious clerics. A similar process can happen with governments of 
Middle Eastern countries who are disproportionately the sources of 
suicide attackers in Iraq such as Saudi Arabia and Libya.

    Ms. Harman. Thank you very much for that interesting and 
very concise testimony.
    Mr. Wright, you are recognized to summarize your testimony 
in 5 minutes.

  STATEMENT OF LAWRENCE WRIGHT, FELLOW, NYU CENTER ON LAW AND 
                            SECURITY

    Mr. Wright. Thank you, Madam Chair and Members.
    Al Qaeda's violent philosophy has proved to be a powerful 
lure to alienated young Muslims all over the world. Much of 
that philosophy was formulated by Sayyid Imam al Sherif, also 
known as Dr. Fadl. He was the emir of the Egyptian terror 
organization created by Ayman al-Zawahiri called Al Jihad. In 
1988, Zawahiri and Dr. Fadl joined with Osama bin Laden to 
create al Qaeda. Two of Dr. Fadl's books form the core of al 
Qaeda's ideology and were used to indoctrinate new recruits.
    Dr. Fadl was arrested in Yemen shortly after 9/11 and 
eventually restored to Egyptian custody. In November of 2007, 
Dr. Fadl published a manifesto that dramatically reverses his 
previous views. Despite the fact that Dr. Fadl is writing from 
an Egyptian prison, his new work has created a philosophical 
earthquake inside radical Islam. Zawahiri has repeatedly 
addressed the challenge that Dr. Fadl poses in videos, in a 
question-and-answer session on the Internet with Muslims, and 
in a 200-page book directly addressing this particular 
controversy. It is clear that al Qaeda views this revisionist 
thinking with great alarm.
    This August marks the 20th anniversary of al Qaeda's 
founding. That is a long time for a terror organization to 
exist. But al Qaeda shows no signs of disappearing any time 
soon. Most terror organizations end with the death of their 
charismatic leader, the elimination of their sanctuaries, or a 
change in the political, economic and social conditions that 
gave rise to it. Unfortunately, the leaders of al Qaeda 
continue to exist and to operate inside secure sanctuaries, and 
the socioeconomic conditions in the Muslim world show little 
signs of progress. The philosophical challenge to al Qaeda 
within its own ranks will have a limited but still important 
effect on the group's ability to recruit new members to its 
ranks.
    American policymakers can take advantage of this period of 
uncertainty within radical Islam to wage a vigorous diplomatic 
campaign directed toward ending the polarization between the 
West and the Muslim world that al Qaeda has sought to create.
    Nothing would do more to reduce anti-Americanism in the 
Middle East than fair and forceful diplomatic efforts to end 
the festering crises in Israel and Palestine and also in 
Kashmir, which is central to stabilizing Pakistan and getting 
its leaders fully committed to addressing the radical threat in 
their own country.
    American intelligence continues to be handicapped by the 
security restrictions that obstruct the hiring of citizens who 
natively speak the languages needed to understand, much less 
penetrate or disrupt, al Qaeda. As an example, let's take the 
FBI, an organization that made its reputation fighting against 
the Mafia and, to some extent, the IRA. Who succeeded in doing 
that? Irish and Italian guys. It is not a joke that many people 
in our Intelligence Community can't pronounce the names of the 
people they are struggling to fight against. Until we have 
people who natively speak and understand the languages and 
cultures that we are fighting against, we will always be deaf 
and dumb in the struggle.
    Al Qaeda has created a compelling narrative about America's 
role in the world and especially in the Middle East. Untold 
thousands of Muslims endorse that narrative whether they join 
al Qaeda or not. As al Qaeda's violent philosophy has become 
vulnerable to the reconsiderations within the radical Islamic 
movement, this is a propitious moment to change that narrative 
through creative, vigorous, assertive diplomacy and more 
informed intelligence gathering.
    As Michael Leiter, the director of the National 
Counterterrorism Center, recently pointed out, it is al Qaeda, 
not the West, that is truly at war with Islam. If Muslims came 
to believe that, then the war on terror would quickly end.
    Thank you, Madam Chair.
    [The statement of Mr. Wright follows:]
               Prepared Statement of Lawrence Wright \1\
---------------------------------------------------------------------------
    \1\ The opinions expressed in this statement are the author's own 
and should not be interpreted to reflect the official views of the 
Center for Law and Security.
---------------------------------------------------------------------------
   the rebellion within: the radical challenge to al qaeda's ideology
                             july 30, 2008
    At the heart of al Qaeda's appeal to young, alienated Muslims is a 
coherent and persuasive ideology that provides a meaningful way of 
looking at history and a moral platform that justifies violent action. 
This worldview has been challenged by moderate Muslims, who say that al 
Qaeda's thinking distorts the true message of Islam and who emphasize 
the unity of the Abrahamic faiths.\2\ Such statements do not seem to 
have had much affect on al Qaeda's ability to attract recruits and 
certainly hasn't caused the organization to change its behavior. 
Recently, however, al Qaeda has faced a philosophical challenge within 
its own ranks, one that may prove far more critical to the future of 
the organization than any critique by non-Muslims or even very 
authoritative Islamic clerics. It is important for American 
policymakers to understand the nature of the debate within al Qaeda in 
order to appreciate how the organization is changing and how the United 
States and its allies can take advantage of this ideological rift.
---------------------------------------------------------------------------
    \2\ For example, in the Amman Message (http://www.ammanmessage.com/
), 200 senior religious scholars from more than 50 countries, drawn 
together in July 2005 by Jordanian King Abdullah II, asserted the unity 
of all branches of Islam and called for tolerance, mutual respect, and 
freedom of religion; also, in October 2007, 138 prominent Muslim 
clerics, jurists, scholars, journalists, diplomats and political 
figures endorsed a document titled ``A Common Word Between Us and 
You,'' (http://www.acommonword.com/index.php?lang=en&page=option1), 
which emphasizes the commonalities of Islam and Christianity.
---------------------------------------------------------------------------
Background of al Qaeda's Philosophy
    Many of the key concepts at the core of al Qaeda's doctrine are to 
be found in the work of Sayyid Qutb, an Egyptian writer, educator, and 
member of the Muslim Brotherhood. While imprisoned in Egypt, Qutb wrote 
the book that became the fountainhead of radical Islam, Milestones. \3\ 
Qutb believed that true Islam no longer existed because of ``false laws 
and teachings'' that separated Muslims from the glory of their past.\4\ 
He sought to create a theocratic government that strictly enforced 
Sharia, the Islamic legal code, and he called for a vanguard of young 
Muslims who would rise up and impose Islamic values on every aspect of 
life. Al Qaeda sees itself as the manifestation of Qutb's prophesy.
---------------------------------------------------------------------------
    \3\ Qutb, Sayyid. Milestones. Indianapolis, Ind.: American Trust 
Publications, 1990.
    \4\ Wright, Lawrence. The Looming Tower: Al-Qaeda and the Road to 
9/11. New York, NY: Knopf, 2006.
---------------------------------------------------------------------------
    It was Qutb who resurrected an ancient heresy in Islam, that of 
taqfir. The word in Arabic means ``excommunication.'' While Qutb was in 
prison, guards murdered 23 members of the Muslim Brotherhood in their 
cells. Qutb asked himself: What kind of Muslim could do this to another 
Muslim? His answer was: They are not Muslims. In his mind, he 
excommunicated the guards from the faith. The same logic extended to 
the leaders of the Egyptian government who refused to fully implement 
Sharia. They were apostates and deserved to be slaughtered.
    The Egyptian government hanged Qutb in 1966, but by then his 
manifesto had made its way into the hands of many thousands of young 
Muslims all over the world, including Ayman al-Zawahiri and Osama bin 
Laden. The year that Qutb died, Zawahiri started an underground cell to 
overthrow the Egyptian government. He was 15 years old.
Dr. Fadl: Al Qaeda's Philosopher-in-Chief
    Another young man strongly influenced by the work of Sayyid Qutb 
was Sayyid Imam al-Sherif, who would come to be known in the world of 
radical Islam as Dr. Fadl.\5\ Zawahiri and Fadl met in medical school 
at Cairo University in 1968. They were both high-minded, pious young 
men, typical of the scientists, engineers, and technocrats who would 
make up the first generation of al Qaeda. Fadl formally joined 
Zawahiri's secret organization, al-Jihad, in 1977. It was that group 
that would assassinate Anwar Sadat in 1981--the first modern victim of 
Qutb's doctrine of taqfir.
---------------------------------------------------------------------------
    \5\ Wright, Lawrence. ``The Rebellion Within,'' The New Yorker, 
June 2, 2008.
---------------------------------------------------------------------------
    Zawahiri spent 3 years in prison for his minor role in Sadat's 
assassination. Fadl escaped Egypt and made his way to Pakistan, where 
Zawahiri joined him soon after his release. In Peshawar, the two men 
reconstituted al-Jihad, with Fadl designated as the emir, or leader, of 
the group. His main role, however, was to formulate the doctrine that 
would be used to entice young Muslims into their organization and steer 
them toward radical action. His book ``The Essential Guide for 
Preparation'' appeared in 1988, the same year that he and Zawahiri 
joined with Osama bin Laden to create al Qaeda. The ``Guide'' was 
immediately adopted as a textbook for jihad.
    The premise that opens the ``Guide'' is that jihad is the natural 
state of Islam. Muslims, Fadl decreed, are involved in an eternal 
conflict with nonbelievers. Every able-bodied Muslim is obligated to 
engage in jihad, particularly in Islamic countries that are governed by 
``infidels''--a category that includes practically every Muslim leader. 
``The way to bring an end to the rulers' unbelief is armed rebellion,'' 
Fadl writes. It's no wonder that many Arab governments considered the 
book so dangerous that anyone caught with a copy was subject to arrest.
    Six years later, when al Qaeda was centered in Khartoum, Sudan, Dr. 
Fadl produced a massive, two-volume work titled ``The Compendium of the 
Pursuit of Divine Knowledge.'' Salvation, Fadl writes, is only 
available to the perfect Muslim. He asserts that the rulers of Egypt 
and other Arab countries are apostates and that any Muslim who fails to 
wage jihad against them is doomed. Moreover, anyone who works for the 
government is an infidel, as is anyone who supports democracy or labors 
for peaceful change rather than religious war. ``I say to Muslims in 
all candor that secular, nationalist democracy opposes your religion 
and your doctrine, and in submitting to it you leave God's book 
behind,'' he writes.
    Fadl also expands upon the doctrine of taqfir, which is central to 
understanding al Qaeda's actions. In Fadl's opinion, one must adhere to 
his extreme views in order to be a real Muslim; everyone else is a 
heretic. His book provided a warrant to the leaders of al Qaeda to kill 
anyone who stood in their way. Fadl's ideas form the core of al Qaeda's 
bloody doctrine. Zawahiri told Fadl, ``This book is a victory from 
Almighty God.''
The Revisions
    Dr. Fadl moved to Yemen in 1994, and while he was there he learned 
that portions of what he considered to be his masterwork had been 
bowdlerized by Zawahiri. The dispute between the two men became so 
bitter that Zawahiri traveled to Yemen to beg forgiveness, but Fadl 
refused to see him.
    Six weeks after 9/11, Yemeni authorities placed Fadl in jail, 
eventually transferring him to Egyptian custody. For 2 years, Fadl was 
held by the security forces in Egypt, which are notorious for their 
mistreatment of prisoners. Whether because of torture or the personal 
animosity he felt toward Zawahiri, Fadl experienced a radical shift in 
his thinking, which is reflected in his recent manifesto titled 
``Rationalizing Jihad in Egypt and the World.'' In the document, and in 
a subsequent interview with the pan-Arab daily al-Hayat, Fadl attempts 
to establish a new set of rules for jihad.
    This time Fadl begins with the premise that ``There is nothing that 
invokes the anger of God and His wrath like the unwarranted spilling of 
blood and wrecking of property.'' Fadl castigates those who resort to 
kidnapping or theft to finance jihad. ``There is no such thing in Islam 
as ends justifying means,'' he writes. One must gain permission from 
one's parents and creditors, as well as the blessing of a qualified 
sheikh or imam. Jihad is not required when the enemy is twice as 
powerful as the Muslims; in such an unequal situation, Fadl writes, 
``God permitted peace treaties and cease-fires.'' Despite his repeated 
calls for jihad against the infidel rulers, Fadl now advises Muslims to 
be patient, quoting the Prophet Mohammed as saying, ``Those who rebel 
against the Sultan shall die a pagan death.'' Fadl also asserts that it 
is forbidden to kill civilians, including Christians and Jews, unless 
they are actively attacking Muslims. Indiscriminate bombings are also 
taboo, as they will inevitably take innocent lives. Fadl condemns the 
9/11 attacks because killing simply on the basis of one's nationality 
is a form of slaughter forbidden in Islam; moreover, the consequences 
have proved to be ``a catastrophe for Muslims.'' He also says that the 
9/11 hijackers ``betrayed the enemy,'' because they had been provided 
visas, a contract of safe passage that the hijackers abused.
    ``People hate America,'' Fadl told al-Hayat, ``and the Islamist 
movements feel their hatred and their impotence. Ramming America has 
become the shortest road to fame and leadership among the Arabs and 
Muslims. But what good is it if you destroy one of your enemy's 
buildings, and he destroys one of your countries? What good is it if 
you kill one of his people, and he kills a thousand of yours? . . . 
That, in short, is my evaluation of 9/11.''\6\
---------------------------------------------------------------------------
    \6\ Al-Hayat, December 9, 2007.
---------------------------------------------------------------------------
    Fadl certainly does not condemn all jihad; he is careful to say 
that he supports the insurgency in Afghanistan, which he hopes will 
lead to the triumph of the Taliban. Iraq and Palestine are more 
problematic, he believes, because neither conflict is likely to lead to 
an Islamic state. He charges that the leaders of al Qaeda have used the 
Palestinian cause as ``a grape leaf . . . to cover their own faults.'' 
On the subject of taqfir, Fadl now says that the matter is so complex 
that it should be left to Islamic jurists to decide. ``It is not 
permissible for a Muslim to condemn another Muslim,'' Fadl writes, 
although he has been guilty of this himself on countless occasions.
    This would be a sweeping critique by an al Qaeda insider under any 
circumstances, but it is all the more devastating because it is written 
by the organization's chief theorist and supported by his unquestioned 
scholarship.
Zawahiri's Response
    Zawahiri immediately sought to discredit Dr. Fadl's about-face. 
When word of Fadl's forthcoming document first appeared, via a fax Fadl 
sent to an Arab daily from the Cairo prison where he is being held, 
Zawahiri wryly observed, ``Do they now have fax machines in Egyptian 
jail cells? I wonder if they're connected to the same line as the 
electric-shock machines.'' But the attack clearly threatened Zawahiri, 
who has never had the religious authority Fadl enjoyed within the 
organization. In March of this year he responded with a 200-page letter 
published on the Internet. Zawahiri skirts around many of Fadl's most 
telling arguments. While conceding that ``mistakes have been made,'' he 
warns the many Islamists and clerics who welcomed Fadl's document that 
``they are giving the government the knife with which to slaughter 
them.''
    Zawahiri disputes Fadl's assertion that Muslims have been harmed by 
9/11; on the contrary, he claims that the ongoing conflicts in 
Afghanistan, Iraq, and Somalia are wearing America down and empowering 
the radical Islamic movement. He prods his readers to remember the 
mistreatment that Muslims have suffered in the West, pointing to the 
publication of cartoons of the Prophet Mohammed in Denmark and the 
celebrity of author Salman Rushdie as examples of Western countries 
exalting those who denigrate Islam. Zawahiri points out that the United 
States and some European countries forbid Muslims from donating money 
to certain Islamic charities, although money is freely raised for 
Israel; and he claims that some Western laws outlawing ant-Semitic 
remarks would prevent Muslims from reciting certain passages of the 
Koran.
    Zawahiri defends the practice of kidnapping or killing tourists, 
even when Muslims are mistakenly included. ``The majority of scholars 
say that it is permissible to strike at infidels, even if Muslims are 
among them,'' he writes. He derides the notion that the hijackers 
abused their visas, saying that al Qaeda is not bound by international 
agreements. America itself doesn't feel bound to protect Muslims, 
Zawahiri writes, citing torture in the military prisons and Guantanamo 
Bay as examples. ``The U.S. gives itself the right to take any Muslim 
without respect to his visa,'' he writes. ``If the U.S. and Westerners 
don't respect visas, why should we?'' Zawahiri also complains that al 
Qaeda is being held to a moral standard that is not being required of 
the Palestinian resistance group, Hamas, whose missiles also kill 
innocent children and elderly in Israel, including Arabs.
    In December last year, Zawahiri opened himself up to an on-line 
question-and-answer session in order to staunch al Qaeda's plummeting 
popularity in much of the Muslim world. Many of the often testy 
questions touched on issues raised by Dr. Fadl, such as the slaughter 
of innocent Muslims and the failure of al Qaeda, despite its rhetoric, 
to effectively attack America or Israel. Zawahiri was clearly on the 
defensive. One of his Saudi correspondents asked him why Muslims should 
continue to support al Qaeda, given its history of indiscriminate 
murder. ``Are there other ways and means in which the objectives of 
jihad can be achieved without killing people?'' he asked. ``Please do 
not use as a pretext what the Americans or others are doing. Muslims 
are supposed to be an example to the world in tolerance and lofty 
goals, not to become a gang whose only concern is revenge.'' Zawahiri 
even had to defend al Qaeda against the charge that Israelis had 
actually carried out 9/11, a myth he attributed to Al Manar, a 
television station operated by Hezbollah, the Lebanese Shiite 
organization. ``The objective behind this lie is to deny that the 
Sunnis have heroes who harm America as no one has harmed it through its 
history,'' he responds indignantly.
Importance of the Debate
    The dispute between bin Laden's chief lieutenant and his former 
emir provides a useful window into al Qaeda's thinking and exposes its 
many schisms and vulnerabilities. For the nihilists drawn to the action 
or the thrill or the prospect of revenge, the controversy is 
meaningless. But for those idealists who are responding to al Qaeda's 
moral argument, the fact that there is a debate at all may be decisive. 
Such men need certainty. They are staking their claim to Paradise on 
the truthfulness of al Qaeda's revelation.
    A number of intelligence agencies in Islamic countries have allowed 
imprisoned radicals, who claim to have reformed, to open discussion 
with their colleagues in jail. Egypt has been among the most successful 
of these experiments. Some imprisoned leaders of the Islamic Group, a 
far larger organization than Zawahiri and Fadl's al-Jihad, with much 
more blood on its hands, began to rethink their violent philosophy in 
the 1990's. Their prison debates led to a deal with the Egyptian 
government that permitted thousands of Islamists, many who had never 
been charged with a crime, to return to society. In 1999, the Islamic 
Group called for an end to all armed action, not only in Egypt but also 
in America. The leaders continue to publish books and documents 
criticizing radical doctrine. Senior clerics at al-Azhar University 
oversee the revisions of the former terrorists. ``Our experience with 
such people is that it is very difficult to move them two or three 
degrees from where they are,'' Sheikh Ali Gomaa, Egypt's Grand Mufti, 
told me. ``It's easier to move from terrorism to extremism or extremism 
to rigidity. We have not come across the person who can be moved all 
the way from terrorism to a normal life.''
    Despite the obvious manipulation of this process by the Egyptian 
government, the revisionist movement has proved to be successful, both 
for the imprisoned radicals, who have gained their freedom, and for the 
government, which has seen very few of the released men return to 
violent actions once they have accepted the bargain and publicly 
renounced their previous thinking.
The Larger Context
    The Muslim world has suffered appalling violence since the rise of 
radical Islam in Egypt in the 1960's. Many Muslims have begun to openly 
question the tactics of radical Islam and the bloodshed that has 
ravaged their societies, especially in Iraq, the West Bank and Gaza, 
Egypt, Lebanon, Algeria, Sudan, Somalia, Pakistan and Afghanistan. The 
failure of al Qaeda to achieve any meaningful progress in its campaign 
against the West, while killing tens of thousands of Muslims in the 
process, has created a popular philosophical backlash. One can see this 
not only in the barbed questions submitted to Zawahiri in his online 
question-and-answer sessions, but also in the declining popularity of 
al Qaeda in opinion polls and the increasingly aggressive rejoinders of 
Islamic clerics. In 2007, Sheikh Salman al-Oadah, a radical Saudi 
cleric that bin Laden had lauded in the past, went on television and 
read an open letter to bin Laden. ``Brother Osama, how much blood has 
been spilled?'' he asked. ``How many innocent children, women, and old 
people have been killed, maimed, and expelled from their homes in the 
name of al Qaeda?'' What makes these reconsiderations so potent is that 
they arise within the politically radical fringe of Islam, where al 
Qaeda is most likely to discover new recruits.
    Al Qaeda is an adaptive, flexible, evolutionary organization, 
however, one that is a long way from extinction. Although the core of 
the group is much reduced from pre-9/11 days, it has found a secure 
base to operate within the tribal areas of Pakistan. American 
intelligence estimates the core membership of al Qaeda at less than 300 
to more than 500 men; a source in Egyptian intelligence put that figure 
at less than 200. And yet al Qaeda has been able to form key alliances, 
notably with the Taliban and possibly with elements inside the 
Pakistani military and intelligence communities. Franchised al Qaeda 
branches--particularly in Iraq, Saudi Arabia, and North Africa--have 
extended the brand name. Al Qaeda has been able to attract adherents 
among ethnic groups that previously had little or no affiliation with 
the organization. Future terrorist attacks will continue; the only real 
questions are those of scale.
    And yet, al Qaeda is currently under great pressure to prove its 
relevance. In particular, al Qaeda would like to pull off major attacks 
in the United States and Israel, in order to silence its critics. As an 
aside, I note that the next 2 months offer resonate opportunities for 
an organization obsessed with dates and anniversaries. Exactly 20 years 
ago, on August 11, 1988, al Qaeda had its first organizing meeting, and 
it officially inducted new members the following month, on September 
20. Two additional dates stand out: August 8--8/8/08, the date the 
Olympics open in Beijing--and of course the seventh anniversary of 9/
11. If al Qaeda is unable to strike during this period, it will reflect 
on its ability to remain operational.
``Homegrown'' Terror
    In the last few years, al Qaeda has successfully cultivated 
followers among the native-born Muslim population in Europe, a 
phenomenon that took place with little notice until the London bombings 
in 2005. Before then, there was little official belief that the 
Pakistani population in the United Kingdom was a fertile community for 
al Qaeda recruitment. Now, Pakistani British citizens have figured in 
several major plots. Last year, German intelligence authorities 
confided to me that they were increasingly concerned both about native-
born converts to Islam and about their large Turkish population. 
Shortly afterwards, in September, authorities arrested three men, two 
converts and a Turkish resident, in a plot to attack the American 
military base at Ramstein and the U.S. and Uzbek consular offices. The 
men arrested in Germany had assembled 1,500 pounds of hydrogen 
peroxide, the same material used in the London subway bombings, but a 
far greater quantity.
    America has been blessed with a Muslim population that is 
considerably more integrated and less alienated than is the case with 
European Muslims. That is the main reason that al Qaeda has not been 
able to carry off an attack within the U.S. Muslims in America mirror 
almost exactly the income distribution of the U.S. population in 
general; they are just as likely to be rich or poor, about as likely to 
go to college or graduate school, and far less likely to go to prison 
than the average American. Compare that to the situation in France, for 
instance: only about 12 percent of the French population is Muslim but 
60 percent of the prisoners are. What a stark measure of alienation 
that statistic represents!
    That doesn't mean that America is immune, however. The 2007 Pew 
Poll of Muslim Americans found that 58 percent of them strongly 
disapproved of al Qaeda, a far higher percentage than in Europe, but 5 
percent had a favorable view. In a population of perhaps 2.5 million 
people, that is 125,000 self-identified radicals, certainly a large 
enough base for a homegrown movement, should it arise.
    In recent speeches, both Zawahiri and bin Laden have been courting 
African-American Muslims, who are by far the most disaffected portion 
of the American Islamic community. Only 36 percent of them expressed an 
unfavorable view of al Qaeda.
Implications for American Policy
    Al-Qaeda's violent philosophy, which continues to be a powerful 
source of appeal to young Muslims, has become vulnerable to the 
reconsiderations underway within the radical Islamic movement. As al 
Qaeda's many critics have pointed out, the main victims of terrorism 
are other Muslims. This is undermining al Qaeda's standing all over the 
Islamic world. It is a propitious moment for American policymakers to 
take steps that will further discredit radical Islam and help restore 
America's image in the Muslim world.
    1. Intelligence. Until now, American intelligence has done a poor 
job of understanding, much less penetrating or disrupting al Qaeda. 
Since 9/11, the intelligence community has been reorganized. A new tier 
of bureaucracy--the Office of the Director of National Intelligence--
has been added. A new department--Homeland Security--has been created. 
These have been valuable reforms in many respects, easing communication 
among agencies that have historically been reluctant to communicate 
with each other. But in themselves, the reforms add nothing to our 
store of vital intelligence. What would do that? Skilled people on the 
ground. People who natively speak Arabic, Pashtu, Dari, Urdu--the 
languages that al Qaeda and its affiliates speak. On 9/11, there were 
only eight agents in the entire FBI who spoke Arabic at a near native 
level. Now, nearly 7 years later, there are nine.
    After 9/11, many Arab and Muslim American citizens came forward to 
join the intelligence community. They were spurned. Some of them went 
into the U.S. military, which welcomed them. Many of those served in 
Iraq as interpreters, the most dangerous imaginable assignment. I spoke 
to a former commander of the Army interpreter corps. He told me that 
after 4 years of serving their country, these American citizens still 
can't get a job in the intelligence community because they are 
considered a security risk.
    What further declaration of loyalty do they need to make?
    2. Diplomacy. The language issue is not confined to the 
intelligence community. The Iraq Study Group found that, out of 1,000 
people working in our embassy in Baghdad, only eight were fluent Arabic 
speakers. How can you build a country if you can't read the newspaper?
    Al Qaeda has long taken advantage of the rage and frustration the 
issue of Palestine generates among Muslims all over the world. 
Recently, many Muslims have become more cynical about al Qaeda's 
ability to affect any real change in the conflict. A bold, fair-minded, 
determined American initiative to take this issue off the table once 
and for all would do more to diminish al Qaeda's appeal than any other 
policy the United States could initiate. Despite the weakness of the 
Palestinian and Israeli leadership, and the lame-duck status of the 
current administration, this is a propitious moment in the history of 
this long conflict. The Arab offer, initiated by Saudi Arabia's King 
Abdullah, to recognize Israel is a breakthrough that can't be allowed 
to dissipate. In my view, the chances for a two-state solution are 
rapidly diminishing, and future alternatives won't be nearly as 
appealing.
    Similarly, the unresolved issue of Kashmir draws new recruits to al 
Qaeda and affords it a strategic alliance with key intelligence and 
military figures in Pakistan. Kashmir is rarely addressed by American 
policymakers, but it remains the primary reason Pakistan has been 
unwilling to fully commit to the battle against Islamic extremism. 
American policy seems to be content to let this issue fester. That is a 
mistake. Forceful and fair diplomacy on this matter would help diminish 
feelings of anti-Americanism in the region and help stabilize a country 
that is dangerously close to capsizing.
    3. Guantanamo Bay. The continued detention of foreign nationals 
without charge, many of whom may have had little or nothing to do with 
al Qaeda, remains a black mark on America's record for human rights, 
not only for Muslims around the world but also for Americans who feel 
that the rule of law has been spurned. Al Qaeda loyalists frequently 
invoke Guantanamo because it reminds many Muslims of the oppressive 
conditions in their own countries. The Director of National 
Intelligence, Mike McConnell, told me that he is in favor of closing 
Guantanamo because of the damage it does to America's image, but he 
admits there is a problem about what to do with detainees who may be 
dangerous.
    The success of the Egyptian government's dialog with its own 
radicals may provide a way for the United States to release some of the 
Guantanamo detainees. Allowing Islamic clerics to open discussion 
within the detention center could offer some of the men a chance to 
adjust their thinking and the United States a face-saving way of 
releasing prisoners whose continued detention is legally difficult to 
justify.
    4. Changing the Narrative. It is vital to defuse the idea, so 
successfully planted by al Qaeda propagandists, that the West is at war 
with Islam. The best way the United States can respond to these 
reconsiderations is to open a dialog with non-violent Islamists who are 
seeking reconciliation. That means, among other things, welcoming 
prominent Muslim thinkers and activists, such as Tariq Ramadan, the 
Islamic theologian, and Kemal Helbawy, the former spokesperson for the 
Muslim Brotherhood, into the United States for teaching or speaking 
engagements, rather than shutting them out. It means emphasizing the 
bankruptcy of al Qaeda's politics while supporting democratic movements 
in the Muslim world--even when they produce disappointing results. The 
process is more important than the personalities it produces.
How Terrorist Movements End
    Twenty years is a long time for a terror organization to exist. One 
can look back at history and see the critical moments that closed the 
door on some of al Qaeda's ancestors. Most terror groups disappear with 
the death of their charismatic leader. The Red Army Faction failed when 
the Berlin Wall fell and the organization lost its sanctuary in East 
Germany. The Irish Republican Army, which endured in various 
incarnations for nearly a century, came to an end when economic 
conditions in Ireland significantly improved and the leaders were eager 
to make a political accommodation.
    These examples offer few hopeful parallels for al Qaeda. The 
organization has new sanctuaries, the social economic conditions that 
gave rise to it persist, and the leaders of al Qaeda, Osama bin Laden 
and Ayman al-Zawahiri, continue to elude capture. The main challenge to 
al Qaeda now is philosophical.
Conclusion
    Radical Islam is at a defining moment. The movement has 
accomplished nothing practical for its adherents. There is 
philosophical ferment within its ranks. As the realists among them 
begin to sober up after the earthshaking events of 9/11 and its 
aftermath, the intransigence of the past has given way to a new mood of 
accommodation and coexistence. America has an unusual opportunity to 
begin a vigorous diplomatic campaign directed toward ending the 
polarization with the Islamic world that al Qaeda has sought to create. 
America can be seen, as it once was, as a model for change; indeed, 
nothing we have done since 9/11 has done more to improve our image in 
that part of the world than this magnificent Presidential election we 
are currently engaged in. But a sudden and surprising attack by al 
Qaeda or an ill-advised political or military move on the part of the 
United States will foreclose this opportunity. We must do whatever we 
can to make sure that neither of these eventualities comes to pass, at 
the same time remembering that the status quo also terribly dangerous.

    Ms. Harman. Thank you very much, Mr. Wright.
    Let me just mention to you that the House recently passed 
the intelligence authorization bill for the first time in some 
years. It was, I think, an important bipartisan victory. In 
that bill is a proposal for a multi-level clearance system for 
our intelligence agencies. The relevance of that is that we can 
hopefully now recruit and clear people who bring cultural 
understanding and native language skills to this problem. We 
have had trouble clearing people who have grandmas in Baghdad 
for reasons we are not going to discuss here. But, at any rate, 
it seems to me we are making a little progress against this 
problem you so correctly cite.
    I yield myself 4\1/2\ minutes for questions since I have 
rambled on a bit here. I want to put two questions to both of 
you and stay within my 5 minutes, because we have a lot of 
people who want to ask questions.
    Question No. 1: What impact would capturing or killing 
Osama bin Laden have, at this point, on this problem, if we 
were able to do this?
    I would just point out, as a parallel, the Serbs have 
finally been able to round up the person perceived by most to 
be the mastermind behind the war crimes of a decade ago, 
Karadzic, and he has, last night or today, been rendered to The 
Hague for a trial for his conduct. This has gotten enormous 
world attention. That conflict was over a while back; this one 
is not. But I would like to ask you, how significant would this 
be?
    My second question is about--I will put my bias on it--the 
damage done by the term ``war on terror.'' The RAND Corporation 
came out yesterday with a report that is in the papers today 
saying that that term has been harmful because it implies that 
we are at war with a tactic and that a military response is 
what will win the war. If I am wrong, please disabuse me.
    So those are my questions. One is about capturing or 
killing UBL, and he second is about the term ``war on terror.''
    Mr. Bergen. It is very hard to explain why the French were 
in Moscow in 1812 without reference to Napoleon. It is very 
hard to explain the Holocaust without reference to Hitler. It 
is impossible to explain the rise of al Qaeda and 9/11 itself 
without bin Laden, who continues to operate and continues to 
give broad strategic guidance to the jihadi network and to al 
Qaeda itself. Capturing or killing bin Laden obviously wouldn't 
end the global jihadi movement, but it would be a really good 
start.
    The second, the ``war on terror'' I think is, you know, 
sort of a shorthand we all understand. It may not be ideal. We 
are not in a global police action. The people who we are 
talking about are at war with us. I think that is an important 
point to understand.
    So this is some sort of war. But, as Kasowitz would say, 
what sort of war are we engaging in? We are not in an 
existential struggle with al Qaeda. This is not World War IV or 
anything like it. They are a national security problem. You 
asked, what is the definition of ``victory''? The definition of 
``victory'' is to turn al Qaeda from a national security 
problem into a second-order threat. That is plausible in the 
next few decades. It is going to be a hard struggle.
    So it is a war. The question is, what kind of war? Or, how 
do we calibrate that war?
    Ms. Harman. Thank you.
    Mr. Wright.
    Mr. Wright. I have been stunned when I have talked to some 
members of the intelligence community that they have a belief 
that bin Laden is irrelevant now. He is not irrelevant. There 
is not anybody else in that organization that has the kind of 
standing and moral authority and the ability to recruit and 
inspire young Muslims to join al Qaeda. There is nobody else on 
the bench that remotely approximates the standing that bin 
Laden has. Removing him would be essential to bringing down al 
Qaeda.
    I think that it was a mistake to eliminate the bin Laden 
group within the counterterrorism community. I know it 
represented a stain on their ability to capture him, but it 
would be, I think, a wise idea to redouble our efforts, as 
Peter has pointed out in his statement, to capture or kill bin 
Laden.
    On the ``war on terror,'' if you recall, Madam Chair, the 
administration actually went through a period where they 
decided not to call it the war on terrorism. What happened is 
that much of the legal basis for the detainees in Guantanamo 
and so on is premised on the fact that this is a war. So if you 
remove the term ``war on terror,'' then you, to some extent, 
pull a trapdoor on those kinds of legal constructs.
    So I am in favor of not calling it a war on terror, but I 
don't see the practical exit until we have resolved the 
Guantanamo problem.
    Ms. Harman. Thank you very much.
    I now yield to the Ranking Member of the full committee, 
Mr. King, for 5 minutes of questions.
    Mr. King. Thank you, Madam Chair. I just arrived. I don't 
want to intervene. I will just sit and wait and listen and 
learn something. So I thank you. I yield.
    Ms. Harman. Good manners from a New Yorker are always 
welcome.
    [Laughter.]
    Ms. Harman. The Chair now yields to the Ranking Member of 
the subcommittee, Mr. Reichert, for questions.
    Mr. Reichert. We should mention the wisdom of the Ranking 
Member of the subcommittee recognizing that we should go to the 
Ranking Member of the full committee first.
    [Laughter.]
    Mr. Reichert. Thank you, Madam Chair and Ranking Member 
King.
    I have a couple of thoughts. One of the comments that you 
made, Mr. Wright, regarding the compelling story about America 
that al Qaeda has, and, at this point, you see a vulnerability 
there. You did mention, I think, one or two things that you 
thought we might be able to take advantage of at this point in 
time regarding that vulnerability and changing that story to 
our advantage.
    Can you just, kind of, give me a list of things that you 
think we should be doing right now to begin to change that 
message? Because I really think that is an important message 
that needs to be heard by the American people.
    Mr. Wright. Well, thank you for that opportunity.
    To some extent, the best thing we can do is model our own 
good behavior. I think there is nothing that has made a change 
in attitudes in the Muslim world and all over the world more 
since 9/11 than this terrific election that we are having right 
now.
    Recently, in Cairo, I was speaking in Cairo University, and 
all of the students were completely engaged with the election 
that was taking place in our country, which was such a contrast 
to the situation in their own country. That kind of modeling 
behavior is, I think, at the top of what we can do, is, you 
know, behaving ourselves, addressing political problems that 
are real problems publicly and openly, and trying to enlist all 
Americans in the dialog.
    Second, I think that we have a real opportunity, especially 
in Israel and Palestine, right now when the Arab world is 
plainly suing for peace, looking for a way out of this dilemma. 
This is a propitious moment. The situation is unbelievably 
dangerous. As long as we let the situation stay on the table, 
we are going to suffer from the consequences of it. I don't 
think that we can afford to be lax and inattentive. We should 
be forceful, we should be much more aggressive in trying to put 
this situation off the table.
    I think that I have already made my views clear about the 
Intelligence Community, but we have to--you know, we have young 
Muslims who came forward and offered their services to American 
intelligence who were spurned, and many of them went into the 
American military, and what happened to them? They became, many 
of them, translators in Iraq, the most dangerous imaginable 
assignment.
    I talked to one of the commanders in the Army 
interpretation corps. He said that, after 4 years of serving 
their country in Iraq, they can't get a job in American 
intelligence because they are considered a security risk. Well, 
what other declaration of loyalty do you need to make?
    Mr. Reichert. Yes. Thank you.
    That is, I guess, you kind of just ended with part of my 
follow-up to the first question, and that is, so, in regard to 
the Iraqis who have put their lives out there and now want to 
come here and work in our Intel Community--and also you made a 
comment about including Americans in the dialog, which I think 
really fits into that piece that you just explained.
    Don't you believe that there is a huge educational piece 
that needs to take place here in this country, first 
recognizing there is a war on terror, and that we do have an 
opportunity, right now there is a vulnerability, to change the 
message to al Qaeda being at war with Islam and not the West? 
How do we accomplish that? Have either of you thought anything 
about how do we educate Americans to realize where we are 
actually at today?
    Mr. Wright. One thing that we made a mistake, in my 
opinion, is keeping moderate Muslims out of America, people 
like Hamal Habawi and Tariq Ramadan, who are not at all radical 
Muslims. We have kept the American people from the exposure to 
the dialog. We should be much more deeply engaged with moderate 
leaders of the Islamic community at home and abroad.
    I think it was mentioned in my introduction earlier, I used 
to teach at the American University in Cairo. I don't think 
there is another institution in all of the Middle East that has 
done more good over a long term than our educational efforts in 
Egypt and elsewhere. That kind of thing can be amplified I 
think, exchanges among students.
    You know, if you are like Peter and I, you travel a lot in 
that region, and you go to visit American embassies. They are 
like prisons. They are like minimum-security prisons. The 
prisoners are the diplomats, who never get a chance to get out 
into the country that they are supposedly representing. People 
don't see Americans in that part of the world, and we have to 
do something to change that. Our efforts for public diplomacy 
right now are at a real nadir.
    Mr. Reichert. I see my time has expired, Madam Chair.
    Thank you for your answers.
    Ms. Harman. Thank you, Mr. Reichert.
    Mr. Carney is now recognized for 5 minutes.
    Mr. Carney. Thank you, Madam Chair.
    Mr. Bergen, is CNN covering this hearing?
    [Laughter.]
    Mr. Carney. Okay. No, just--not important.
    This is a question, though, I really thought long and hard 
about it. I have a little bit of background on this topic, as 
well.
    Has al Qaeda been manipulated by governments in the Middle 
East? This is for both of you, actually.
    Mr. Wright. In what sense?
    Mr. Carney. Does al Qaeda fulfill some political goals of 
some of the regimes in the region?
    Mr. Bergen. Not really, because, after all, the main point 
of al Qaeda is regime change around the Middle East. I mean, 
the reason we are being attacked is it is a sort of sideshow to 
their main aim, which is regime change from Riyadh to Morocco 
to Jordan. You know, we are the foreign enemy; attack us. We 
will pull out of the Middle East, then these regimes will 
crumble, and they will get what they want, which is regime 
change in the Middle East.
    So if these governments are manipulating al Qaeda, it is 
probably not the most ideal organization to be manipulating.
    Mr. Carney. Mr. Wright.
    Mr. Wright. I agree with Peter's observations on that. I 
think Saddam Hussein made overtures to al Qaeda, at one point, 
and were rejected. Al Qaeda has had interchange with 
governments in the past, but it is--and with Iran, for 
instance. But, you know, none of this has ever prospered the 
governments that have approached them.
    Mr. Carney. What, from your perspective, what you have been 
able to hear on your travels recently about the level of 
sophistication of their ability to attack and with what sorts 
of weapons?
    Mr. Bergen. I think in the next 5 years al Qaeda will be 
able to do two things they have wanted to do. These are not 
``Chicken Little'' scenarios; these are plausible scenarios.
    One is to bring down a commercial jet somewhere in the 
world with a rocket-propelled grenade or surface-to-air missile 
or man-powered, something they tried to do in Mombasa, Kenya, 
in 2002 with an Israeli charter jet--very narrowly escaped, 
luckily. They also tried that with a DHL plane in Baghdad. So 
this is within the realm of the possible. That would naturally 
have a very nasty effect on global tourism and aviation.
    The second is detonating a radiological bomb in a major 
European city, again, something they have had a demonstrated 
interest in and not relatively easy to organize. As I mentioned 
earlier, I think their ability to attack the United States for 
the next 5 years is extremely low.
    But those are the plausible scenarios that obviously would 
have an impact on us and might well kill large numbers of 
Americans overseas.
    Mr. Carney. Would they be able to pull off something like a 
Bojinka again?
    Mr. Bergen. Well, the plane plot in the summer of 2006 
would have been Bojinka on steroids, yes.
    Mr. Wright. I would point out that al Qaeda is an 
organization that loves dates and anniversaries. The next 2 
months are replete with opportunities. 8/8/08 is the date that 
the Beijing Olympics open. Al Qaeda was founded, the first 
meeting was August 11, 1988, 20 years ago. The following month, 
on September 20, was its first organizational meeting. Then 
there is the seventh anniversary of 9/11 coming up.
    So, August and September, I think al Qaeda will be under 
great pressure to perform. It will be interesting to see if it 
is able to pull anything off during that time.
    Mr. Carney. Mr. Bergen, how important was Hassan Turabi to 
bin Laden's start?
    Mr. Bergen. Hassan Turabi, who is the de facto leader of 
Sudan in the mid-1990's, obviously provided bin Laden shelter. 
Al Qaeda benefited from that.
    Mr. Carney. Does it move forward to today?
    Mr. Bergen. The Sudanese connection I think is over. There 
is no love lost between these guys now.
    Mr. Carney. No further questions this round, Madam Chair.
    Ms. Harman. Thank you, Mr. Carney.
    Mr. Shays is recognized.
    Mr. Shays. Thank you, Madam Chair, for holding this 
hearing.
    I chaired the National Security Subcommittee and 
transferred our focus from drugs to the threat of terrorism in 
1998, and we had 20 hearings before September 11. This is deja 
vu for me, because I feel like we are in this lull, like we 
were then.
    You have some said remarkable things, both of you--
radioactive material, a conventional bomb with radioactive 
material, knocking down an airplane--and when it happens, you 
know, everybody is going to act like they are surprised.
    The thing that I react to, first off, is I like that the 9/
11 Commission didn't say we are confronting terrorism, as if it 
is some ethereal being. They we said we are confronting 
Islamist terrorists who would do a lot of harm, and we are not 
going to find them in Iceland. It just strikes me that we have 
to figure out how we describe the truth without offending the 
innocent overseas. I don't quite know how you do it.
    But, first, I happen to believe that we should have an 
embassy in every country--Iran, North Korea, Cuba--because 
going into Iraq, if we had had an embassy in Iraq, the 
intelligence would have been far better than what it turned out 
to be. I just reread the intelligence report for 2002, 
estimate, and it is unbelievable how strong it was that, you 
know, Saddam is going to do all these things and had nuclear, 
chemical and biological.
    But, first, let me ask you, do you believe we are 
confronting Islamist terrorists?
    Mr. Bergen. Yes, I do.
    Mr. Shays. Do you believe we should name it that, as 
opposed to terrorism, like it is some ethereal being? Both of 
you.
    Mr. Bergen. Yes. The national security threat the United 
States faces is from Islamist terrorists. It is not from 
radical vegetarians.
    Mr. Shays. Okay.
    [Laughter.]
    Mr. Shays. 1993 was the first attack on the World Trade 
Center; 2001 was the second. I had 70 constituents who lost 
loved ones, and they were outraged that they weren't informed 
that this was a target, and we knew it was a target. They had 
reason to be outraged in one sense. But following that logic, 
2001, that means 2009. Why should I take comfort that there 
hasn't been an attack in the United States, as if we have had 
some ability to prevent that, when they work on a time frame 
that is not, you know, tomorrow?
    I would like both of you to answer this.
    Mr. Wright. I am not here to give you comfort. But I think 
there are several reasons why we haven't been attacked. The 
primary one is the American Muslim community doesn't give the 
kind of shelter to radical native-born American Muslims who 
might want to turn against this country.
    As an example, a few years ago I was having Iftar with a 
group of radical Muslims in Birmingham, England. That is the 
meal you take to end the fast at the end of the day in Ramadan. 
One of my companions said he supported the kidnapping and 
beheading of aid workers in Iraq. I thought, ``Well, you know, 
he is dangerous.'' We have people like him in this country. But 
I looked around the room, and I saw all these people nodding in 
agreement. I said to myself, ``What is really dangerous are 
those nodding heads.''
    Mr. Shays. Interesting.
    Mr. Wright. That is what we don't have, as yet, in this 
country.
    Mr. Shays. Let me ask you quickly, do you confront them 
when they say that, or are you just an observer? I don't mean 
``just'' as a criticism. I mean, do you try to learn more about 
why they think that way?
    Mr. Wright. That particular conversation came not long 
after 
9/11 when my own feelings were pretty raw, and the evening 
degenerated really quickly.
    Mr. Shays. Okay. Let me ask Mr. Bergen to answer that 
question.
    Mr. Bergen. The three reasons, in my view, that we haven't 
been attacked in the United States is, as Larry says, the 
American Muslim community doesn't buy into the al Qaeda 
ideology. Second, no evidence of al Qaeda sleeper cells. I 
can't prove negatives to you, but if these sleeper cells exist, 
they are either comatose or dead. They have done nothing for 7 
years. Third, it is very hard for terrorists to get into the 
country now. So if you don't have people here, and if you don't 
have sympathizers here, and it is very hard to get in, how do 
you attack us?
    Jihadi terrorists, when they have attacked or tried to 
attack--first Trade Center attack, second Trade Center attack, 
and then Ahmed Ressam who tried to blow up LAX in 1999--all of 
them came from outside. No one was internal. Which is not to 
say there might not be some homegrown al Qaeda wannabes who are 
trying to do something, but there is a natural ceiling to their 
abilities. They are not going to able to do anything very big.
    Mr. Shays. Thank you.
    I look forward to the second round.
    Ms. Harman. Thank you, Mr. Shays.
    Mr. Perlmutter, 5 minutes.
    Mr. Perlmutter. Thanks, Madam Chair, and thanks for holding 
this hearing.
    Gentlemen, thank you for your information. I am just trying 
to absorb all that you are saying to us. I think you have put 
it in terms that, for me, really are much more understandable 
than I have had in the past. So thank you for that.
    Let's switch to a couple of things that both of you have 
touched on. I am looking, Mr. Wright, at a statement on page 6. 
``It is easier to move from terrorism to extremism or extremism 
to rigidity. We have not come across the person who can be 
moved all the way from terrorism to normal life.'' That was one 
of the--Sheikh Ali Gomaa, Egypt's Grand Mufti.
    You mentioned the Mafia. Sort of, to break the Mafia, 
people had to really be from that community, in effect. But it 
also brought to mind, the Mafia, ``The Godfather,'' in which 
Michael Corleone was trying to get out of the Mafia. He thinks 
he is out of the Mafia, and they pulled him back in.
    So my questions to you are, do you think these leaders 
will, as Fadl has done, continue to move away from al Qaeda? Do 
you think--and I think you said no, but what can we do to have 
more people be conversant in this and being able to speak the 
language? Where should our efforts be?
    Those are my questions to you two.
    Mr. Wright. Sheikh Ali Gomaa is the Grand Mufti in Cairo, 
and he has overseen what was a very remarkable series of 
conversions within the Egyptian prisons.
    A much larger group than Zawahiri's Al Jihad is Gama 
Islamiyya, which is an Islamic group. It has much more blood on 
its hands; by a factor of 10, much larger than Al Jihad. In the 
1990's, they waged a war on the Egyptian Government that killed 
more than 1,000 people.
    The leaders in prison began to reconsider their views, and 
they went around to talk to some of their other members. In 
1999, the entire organization renounced violence and made a 
deal with the government that allowed many of these people to 
get out of prison.
    This is a really interesting development. I have talked to 
some of these people, some of the leaders that are now out of 
prison. They say they weren't tortured into making these 
changes. They continue, even out of prison, to write documents 
and manifestos addressing the errors of their thinking in 
previous lives.
    I think this offers an interesting model for dealing with 
radicalism. As Sheikh Ali Gomaa remarked, you can't expect too 
much. You can't say that, because you have an extremist in 
prison who has committed violent actions, that he is then going 
to become a suburban homeowner. He may not. But he may move 
just enough away from violent action that he is no longer a 
threat to his community. That is maybe the most that you can 
hope for.
    Mr. Bergen. I mean, really, sort of a comment. It is not 
just the leaders who are doing this process. Support for 
suicide bombing in Pakistan has dropped from 33 percent to 8 
percent in the last 5 years. Bin Laden's personal support has 
been cratering in the North-West Frontier Province, although it 
has had an uptick recently. So it is not happening just at the 
elite level; it is happening at the Muslim civilian level.
    One of the most promising things I have heard in the 
hearing today is the phrase that al Qaeda is at war with Islam. 
That is an incredibly important kind of message, that you don't 
have to be an expert in Islam to say that. Because we have the 
kiss-of-death problem, which is that if it has an American 
imprint, it is obviously a problem at the moment. We also have 
a lack-of-knowledge problem. There are certain things we can 
say. When female suicide bombers kill 100 people in Baghdad, as 
they did yesterday, that is against Islam. You don't have to be 
an expert in that area. So that is the kind of things that we 
can say. But Muslim civilians are making their own decisions 
about this.
    Mr. Perlmutter. I yield back.
    Ms. Harman. Thank you, Mr. Perlmutter.
    I would just add that what we have seen in Anbar province 
in Iraq is an illustration of this point, where Sunnis have 
pushed back against al Qaeda. Al Qaeda is at war or perceived 
to be at war with Sunni Islam there, and al Qaeda is losing.
    The Chair now recognizes Mr. McCaul for 5 minutes.
    Mr. McCaul. Thank you, Madam Chair.
    I have two issues I want to raise and give as much time to 
the distinguished witnesses as possible.
    Larry, you and I touched upon this in the airplane ride 
from Austin to here yesterday. One is the--I just got back from 
Pakistan and Afghanistan. I spent the 4th of July week with the 
troops in Afghanistan. It was clear the violence is going up 
there. The primary source for this violence and the extremism 
is coming out of what we call the tribal areas, or the FATA.
    In my view, this is becoming an increasingly huge threat, 
not only to our troops but to the United States. They have 
reconstituted there since 9/11. If bin Laden is alive, that is 
probably where he is. So if you all could comment on that 
issue.
    In addition, if you could comment on the role that the 
madrassas play, particularly in Pakistan. I know with the 
subway bombings in London, the London arrests, I know that 
Musharraf, we met with him, has talked about his educational 
reforms, in terms of keeping foreign nationals out of these 
madrassas.
    So, with that, I will turn it over to our witnesses.
    Mr. Wright. Well, let me go first, Peter, because I know 
you can address the madrassa problem better than I.
    We are in the easier spot, describing the problem. You have 
the unfortunate responsibility of trying to resolve or provide 
some sort of remedy for this.
    The central problem with al Qaeda and Pakistan is that 
these are both very dangerous entities. If you talk to people 
in the Intelligence Community, basically they all say, as 
Director McConnell told me, we know where bin Laden is. He is 
in the tribal areas. It is about the size of the State of New 
Jersey.
    So if you say to average Americans, well, bin Laden is in 
New Jersey, they will say, well, why can't you go find him? 
Well, because if you go in--Pakistan is a very unstable country 
with nuclear bombs and a bad history of spreading that kind of 
technology around. In the opinion of a lot of people in the 
American intelligence community, al Qaeda is a nuisance 
compared to the real danger posed by destabilizing Pakistan.
    Now, in my opinion, we are just waiting for some political 
excuse, i.e. another major al Qaeda attack, for the political 
authority and will to go in and clean out those tribal areas, 
which will be very dangerous. But that is essentially the state 
that we are in.
    Peter has done research on the madrassas, and I am sure 
that he can comment on that.
    Mr. Bergen. On madrassas, you know, madrassa graduates are 
functional idiots who can recite the Koran in a language they 
can't understand. So this doesn't get you through customs at 
JFK or Heathrow. So there is no evidence that madrassa 
graduates are successful in conducting anti-western terror 
attacks, because they are just not up to it. They are, however, 
the principal recruiting ground for suicide attackers in 
Afghanistan right now. So that is where the problem is.
    In terms of the Afghan-Pakistan thing, the United States 
has to do a complete rethink about everything we are doing 
there. It is obviously going very poorly. You know, to McCain's 
credit, to Obama's credit, asking for more troops is part of 
the solution. To Senator Biden and Senator Lugar's credit, 
asking for $7.5 billion in more military aid to demonstrate to 
the Pakistanis that we are not just subsidizing their army, 
this is also a good thing. But we need to rethink everything we 
are doing there, because it is going wrong.
    Obviously, the fact that NATO has taken over strategic 
command in Afghanistan, by any stretch, by any kind of 
standard, has not been a success. In fact, it has been a 
failure. So one quick idea is the four-star general there, 
General McKiernan, should be in charge of all U.S. and all NATO 
operations in the country. At the moment, he isn't.
    There are many other things we need to do. Our drug policy 
in Afghanistan completely crazy. We spend more on our anti-drug 
policy in Afghanistan than Afghan farmers make from growing 
poppies. At the same time, every year the crop goes up; 93 
percent of the world's heroin supply comes from the country. It 
is funding the Taliban. We need to do a complete rethink of 
that. Obviously, if you eradicate poor farmers' poppy fields, 
that throws them into the arms of the Taliban.
    So, unfortunately, in 36 seconds I can't tell you all of my 
ideas. But suffice it to say, we need, as we did in Iraq, a 
complete rethink of everything we are doing.
    Mr. McCaul. Within the 20 seconds I have left, we know the 
threat is there, and we have been somewhat reactive, not 
proactive. Do we need to be more proactive, or do we just sit 
back and let it fester, as we have since 9/11?
    Mr. Bergen. It is a very hard dilemma, because 75 percent 
of Pakistanis, when polled, say any form of U.S. military 
activity on their territory for any purpose at all, they are 
against it. It is 170 million people with nuclear weapons.
    So, unfortunately, we are going to have to prepare 
ourselves for the moment when there is an attack in London that 
kills 50 to 100 people traceable to FATA or an attack against 
American citizens somewhere in the world traceable to FATA, and 
that will provide the political impetus.
    But, without that, I don't see it happening. It is going to 
be a very difficult thing to do anyway.
    Ms. Harman. The gentleman's time has expired.
    We will have a second round of questions.
    The Chair now recognizes Mr. Pascrell.
    Mr. Pascrell. Thank you, Madam Chair. Thank you for 
allowing me to sit on this prestigious committee.
    Both of these gentlemen, I think, while speaking to the 
issue of intelligence, have provided intelligent suggestions to 
us, both of you. I read those books. I agree with my friend 
from Texas that they are on target.
    I have recently returned from the border with Congressman 
Capuano and Congressman LoBiondo. We requested that we not go 
to Kabul, that we go to the border, where no other House Member 
or Senate Member had previously gone. We went to two firebases. 
The furthest to the border was Shockley, where our special 
forces are doing a magnificent job. It took us over an hour to 
helicopter there on the front lines.
    I must say to my brothers and sisters on this committee 
that the only people whom I have met that understand what is 
going on concerning these infidels, I call them, these radical 
terrorists, are the soldiers that we have sent. They understand 
what is going on. They get it.
    They realize that we are not going to win and defeat 
terrorists by killing more of them than they kill of us. They 
get it. We don't. They understand on the front lines, our 
special forces, that we need to provide education to help 
educate people. They educate us; this is a two-way street, as 
both of you have said time and time and time again.
    They understand that this is not a war against Islam, nor 
is this a war on terror. To defend the homeland, we must win 
the war of ideas. They understand it. In fact, way out there on 
that border, here were some of our bravest soldiers putting 
comic books together so that people could understand what 
America is all about and the great country that we are.
    When I came back to the States and got off at Andrews and 
kissed the ground, as I always do, this comic book that I had 
in my pocket fell out of my pocket on the ground. I was 
reminded of this trip that was the most magnificent trip I have 
ever taken in my life since I have been in the Congress.
    Then we went to Pakistan to convince the new leadership 
that the war is on the border, the fight is on the border--and 
not on the border with India, where most of the Pakistani 
troops are. That is not an easy task, to convince them.
    I am confident that the intelligence of our soldiers will 
be someday inherited on the Hill, or someday genetically 
transformed, somehow, some way. They are, indeed--not a 
cliche--the bravest soldiers that we have.
    How do we get Pakistan to help us, is critical at this 
point. It was critical 4 years ago. I don't want to provide a 
commercial of how we sent our troops to the wrong place in 
defeating those infidels who attacked us on 9/11 in 2001.
    Am I using hyperbole here, Mr. Wright, Mr. Bergen? Am I on 
target? Should I go back and revisit my premise? Should I 
change my argument? Mr. Wright? Mr. Bergen?
    Mr. Wright. First of all, in my judgment, I agree with you, 
that I think the American military has done a better job of 
adapting than any other arm of our Government to the challenge 
that is being faced. It has been a transformation, a very 
expensive, bloody one. It has been impressive to have the 
opportunity to go talk to so many people in our military and 
see the changes they have made.
    Now, Pakistan--since 9/11, we have given Pakistan nearly 
$11 billion. The country of Pakistan is in the looking-for-bin-
Laden business. If they found him, they would be out of 
business. That is the lack of incentive that they have. I think 
we do have to find a completely different way of making it 
clear to the Pakistanis that they have a genuine interest in 
bringing this to an end.
    I don't think it is a quick fix. The Pakistanis are 
obsessed with the notion of strategic depth. By that, they mean 
that they are worried that India will leap-frog them in 
influence in Afghanistan. Therefore, they want to keep 
Afghanistan in an unstable situation.
    The key to resolving that, in my opinion, is Kashmir. That 
is the festering wound that continues to agitate relations 
between Pakistan and India. We do very little to address that 
problem, and I think that would help.
    Mr. Pascrell. Mr. Bergen.
    Mr. Bergen. I couldn't agree more about the military. 
Obviously, the fact that Petraeus has taken over CENTCOM in 
September is a good thing. I have been embedded multiple times 
in Afghanistan, and the military is doing, by and large, a very 
good job.
    In terms of Pakistan, you know, the Pakistani Prime 
Minister has said both in Pakistan and the United States now 
that the war on terror is not an American-led war, it is also 
Pakistan's war. So we have a new civilian government in 
Pakistan, 60 suicide attacks in Pakistan last year, more than 
at any time in Pakistani history, most of them directed at the 
Pakistani state--police, military, et cetera. The Pakistani 
establishment is beginning to wake up that this is their own 
problem, not simply just America's problem.
    Unfortunately, there is effectively two governments in 
Pakistan right now. We just saw that ISI was going to be 
brought under civilian control over the weekend, and then 
suddenly it wasn't. So, until the point where the civilian 
government is truly in charge of what the ISI and other 
elements of the military does, this is going to be quite a long 
haul. But I am hopeful, given the fact that we now have a 
really democratically elected government in Pakistan, that 
that, in the long term, is going to happen.
    By the way, on Kashmir, I completely agree with Larry, but 
only a democratically elected government can do it. Because 
Kashmir really is the thing that keeps the Pakistani military 
in business. You take that off the table, then their central 
position in the Pakistani state moves to the side, where it 
should be.
    Mr. Pascrell. Thank you.
    Ms. Harman. The gentleman's time has expired. I just 
observe that those answers shed some light on a question that 
Mr. Carney asked you, which is, is al Qaeda being used in this 
fight, and to some extent now that I hear you both what you 
did, I think the answer to that is yes in certain ways, 
especially by the Pakistanis.
    Finally, the Ranking Member of the full committee, Mr. 
King, is recognized for 5 minutes.
    Mr. King. Thank you, Madam Chair. Let me thank the 
witnesses for the testimony today and for the tremendous work 
they have done on this entire issue for years. I regret I was 
not here for your opening statements, and I hope that the 
questions I ask were not covered by you then.
    I would like to ask three questions and then ask the two of 
you to answer them for me. One, and this is strictly a 
hypothetical question, but if it should be confirmed that al-
Masri was killed the other day, what significance would that 
have?
    Second, the question, I guess Mr. Bergen, it is in your 
testimony about there is no fear of imminent attack over the 
next 5 years of a major level: In that regard--and I spent a 
lot of time with the NYPD, the New York counterterrorism 
people--what do you think the chances would be of them having 
nothing like the 9/11 attacks, but for instance, hitting major 
department stores or sporting events, which would not take the 
same level of sophistication?
    One of the theories I have had as to why they have not done 
that either in New York or malls around the country is that al 
Qaeda has this belief they always have to do a greater attack 
than the one before. I was wondering if you consider that to be 
plausible.
    Then also you have stated that the Muslim community in this 
country is not supportive of terrorism, which I concur in. For 
one thing, Mr. Pascrell and I have had a difference on this 
over the years, but in talking to various police officials 
their concern as expressed to me is that while the Muslim 
community does not support terrorism nor does it come forward 
and disclose what is going on in their ranks. I know, for 
instance, a mosque in my district which has well over 1,000 
members for a number of years was still insisting that it was 
FBI and the CIA that attacked the World Trade Center. I am sure 
they didn't believe it, but it felt that or it seemed as if 
they were under pressure to say that. So it is not anywhere 
near what goes on in England or France, but I do think there is 
reluctance in large parts of the Muslim community in this 
country to come forward and speak with the police and tell them 
what is going on in the mosques.
    With that, if you could answer those questions I would 
appreciate it.
    Mr. Bergen. On the death of al-Masri, if he really was 
killed, al-Masri, who went by the wonderful alias of Abu 
Khabab, is somebody who ran the WMD program for al Qaeda. 
Obviously if he is captured or killed, that is a good thing. 
The most dangerous job in the world is al Qaeda's No. 3. There 
seems to be a lot of people being al Qaeda's No. 3. So taking 
out one person, other than Osama bin Laden himself, is 
obviously not going to end this thing.
    In terms of al Qaeda targets, al Qaeda is not interested in 
attacking a mall in Des Moines, because the people it is trying 
to influence haven't heard of Des Moines. They want to attack 
New York, the District of Columbia, or Los Angeles. They want 
to bring down commercial jets. Look at the planes plot in the 
summer of 2006. They selected the hardest target in the world, 
commercial aviation leaving Heathrow.
    So these are the kinds of things they want to attack. So I 
am not concerned about the department stores. That is not the 
kind of thing they want to engage in.
    I will leave the last question to Larry.
    Mr. Wright. Just on the question of department stores, and 
so on, a few years ago Zawahiri made a statement to his 
followers, essentially a fatwa, allowing them to go forth and 
kill whoever, Westerners, Jews, attack oil facilities and so 
on. But if you are going to attack the United States, if you 
plan to do that, you have to clear it with us. This was a 
proviso that within the fatwa that they wanted to hang on to 
this is the province of al Qaeda Central. In my opinion the 
United States is still Broadway for al Qaeda. They want not to 
diminish the impact of 9/11 with a series of easily imaginable 
and very disruptive attacks such as the one you pose. That in 
their opinion is not the real theater that they are engaged 
upon. In some respects we are protected by their ambition and 
their inability to accomplish that.
    The reticence of the American Muslim community is 
regrettable. It is understandable to some extent because they 
have been spurned. They have had an antagonistic relationship 
sometimes with the intelligence community that is trying to 
penetrate them rather than meet with them. They have been 
turned away repeatedly when they have made offers.
    It also is true that 40 percent of the American Muslim 
community does not believe that Arabs committed 9/11. So there 
is an element of denial on their part about the kind of 
responsibility. I think further engagement in trying to draw 
these people into our police and intelligence communities would 
change that.
    Mr. King. Thank you very much. I yield back.
    Ms. Harman. Thank you very much for that very helpful 
answer.
    Mr. Dent is now recognized for 5 minutes, and I would say 
to Members that we will, if you can stick around, go to a 
second round of questions. I think this testimony is absolutely 
superb in terms of building a record for how we have to think 
about this going forward.
    Mr. Dent.
    Mr. Dent. Thank you, Madam Chair. I, too, recently was in 
Pakistan, and it was quite clear to me at the time that the 
feeling in Pakistan was that India was their principal security 
threat. Although when I was there there was an attack on the 
police in Karachi, Benazir Bhutto had been assassinated a 
couple weeks earlier, there had been the Red Mosque incident as 
well as others. I am glad to hear, Mr. Bergen, that you are 
suggesting that they seem to be recognizing that threat to 
their states' rule is a real threat now, perhaps more than they 
had thought previously. That is what I understood you to say.
    My question is this, al Qaeda had previously talked about 
killing millions of Americans, I think up to 4 million 
Americans. I believe they issued that statement not long after 
9/11. Do you believe that this is still al Qaeda's goal or has 
this so-called unraveling of al Qaeda caused them to change 
their objectives in this regard?
    Either one of you or both can address it.
    Mr. Bergen. Bin Laden is an intelligent guy, but his 
strategy has failed. His idea was to attack the United States 
on 9/11 and we will pull out of the Middle East. Well, quite 
the reverse, we are in Iraq, Afghanistan, et cetera. So he 
continues to conceive of us as the main enemy and he has, he 
and his people have said we are owed something like 4 million 
or 10 million deaths. So during the Cold War we had sort of a 
Kremlinology, because we don't know what the Kremlin wanted to 
do with all its power. Here we know exactly what these guys 
would want to do if they could. They would drop a nuclear 
weapon on Washington without thinking about it if they had one. 
The good thing is that the capabilities are low but their 
intentions remain very high.
    Mr. Wright. I completely agree with Peter.
    Mr. Dent. So the intent is there but the capability is not?
    Mr. Bergen. Right.
    Mr. Dent. There has been a lot of talk about the alienation 
of second generation Muslims and how these individuals are ripe 
for recruitment by al Qaeda in the United States and in Europe. 
If I understood you both correctly you seemed to think that 
this was a much more difficult issue getting homegrown 
terrorists in this country, unlike maybe in the United Kingdom, 
where we had some British boys of Pakistani descent or British 
young men of Pakistani descent who were engaged in all kinds of 
terrorist activities. Could you further elaborate on that 
point? How big a problem is the second generation Muslim for 
the United States versus Europe?
    Mr. Bergen. The United States has an American dream and it 
hasn't worked all the time but has worked very well for 
American Muslims who are disproportionately highly educated, 
compared to the average American. They have higher incomes, 
they don't live in ghettos.
    Now take everything I have just said and reverse it and you 
have the picture in Europe. Having grown up in Britain, I can 
assure you there is no British dream. I am not aware of an E.U. 
dream or a French dream or a Spanish dream. Through a 
combination of alienation and homesickness, or whatever, you 
have this problem in Europe.
    Obviously if we get attacked again, it is very likely we 
will be attacked by somebody with a European passport, probably 
a British passport. After all British citizens have engaged in 
suicide attacks in Tel Aviv in 2003, multiple suicide 
operations in London in 2005, an attempt to bring down American 
aviation with a suicide attack in 2001, and Richard Reid also 
in 2006.
    So the problem is pronounced and it is a national security 
problem for us because of visa waiver program. I am not 
suggesting we change that in any great way, because obviously 
there are huge advantages to that program. But the fact is that 
is where the threat is coming from. It is not the madrassa 
graduates who cannot speak English. It is the Mohammed Attas of 
the world who studied in Hamburg.
    Mr. Wright. I would also add to just frame the difference 
between the situation in the United States, there are very few, 
comparatively few Muslims in the United States that go into 
American prisons, far less than the average prison population. 
In France you have about 12 percent of the population is 
Muslim, 50 percent of the prisoners are. It is a stark measure 
of the degree of alienation that is experienced there as 
opposed to here.
    Now, that doesn't mean that we are immune from homegrown 
terror. The Pew poll found that about 5 percent of American 
Muslims had a favorable view of al Qaeda. In a population of 
about 2\1/2\ million people, that is 125,000 very radical 
people. Lately in al Qaeda's speeches, bin Laden and Zawahiri 
in particular have been courting a particular demographic 
within the American Muslim community, and that is African 
American Muslims, who have historically a very low relationship 
with the Middle East. But only 36 percent of them expressed an 
unfavorable view of al Qaeda. You see now repeated references 
to Malcolm X, even a music video that has been produced that 
pays a tribute to him. So I think this is a deliberate 
courtship of that community.
    Mr. Dent. On the issue of prisons in Europe, this committee 
has held hearings on radicalization within American prisons and 
the Islamic movement. Have you gentlemen observed the American 
prison system and the radicalization, and do you have any 
thoughts on our prisons, and is that the breeding ground that 
some of us think it is or is it not as bad?
    Mr. Bergen. Just a small comment, in Chair Jane Harman's 
district the Torrance, California case, these guys got 
radicalized in prison and that was the most serious post-9/11 
case.
    Is that an exception that proves the rule or something more 
of a general trend? My intuition is that it is not particularly 
widespread. On the other hand, you don't need to have a large 
number of people who adopt that kind of etiology who have a 
criminal background who become a serious threat.
    Mr. Wright. I want to say I have had some experience in the 
past in prisons and found oftentimes that religion and the 
Islamic religion had been a powerful force for reform of 
individual prisoners, and so they were a force for good as well 
as possibly for ill.
    Ms. Harman. Thank you. We will now go to a second round of 
questions. Let me just observe that in the case that Peter 
Bergen mentioned there have been court trials. There were just 
two convictions. One of the fellows got 22 years in prison and 
the other 12\1/2\. It was a fairly serious, well-developed plot 
by a number of people. Many of the Members here know this, 
because we did have a hearing in Torrance, California, but the 
intention was to attack military recruiting sites and Jewish 
synagogues. Fortunately, astute local law enforcement foiled 
the plot. Let me ask about two other things.
    First, Larry Wright mentioned the significance of 8/8/08 as 
the opening day of the Olympics, the 20th anniversary of al 
Qaeda, and you said that there were other significant dates in 
September. This coincidence has not escaped, I think anyone. 
Everyone should know this, some who are focused on security at 
the Olympics. I just wanted to ask your thoughts about the 
capability of al Qaeda to do something spectacular in China in 
the middle of the Olympics. Do you think they would have that 
capability?
    Mr. Wright. Well, there have been some bombings in China 
recently and the Turkestan Islamic Party has made a number of 
threats. Zawahiri has been courting them again in recent 
speeches and making overtures to them, counting them as part of 
the al Qaeda alliance. So I am not familiar enough with Chinese 
security to see--but they have experienced a rise in this kind 
of terrorism and there is no question that the Olympics are a 
target.
    Mr. Bergen. I don't have anything to add.
    Ms. Harman. Thank you. Well, it is certainly on the mind of 
a number of us and conversations have been held, and I know 
that our intelligence services are cooperating closely with 
Chinese intelligence and precautions are being taken.
    My second question is this: If President McBama calls you 
in on January 20 after his acceptance speech and said okay, you 
guys are real smart about the changing nature of the threat, 
the al Qaeda threat, advise me on the steps I should take in 
the immediate term and in what order I should take them, what 
would you say?
    Mr. Bergen. Well--do you want to go ahead?
    Mr. Wright. No, you go ahead.
    Mr. Bergen. There are big-picture things that Larry has 
already touched on, obviously the Israeli-Palestinian peace 
process. Kashmir is much undervalued as a core grievance and 
training ground. None of these things are easy and we can blame 
the British for both of these problems, but both of them need 
to be ameliorated. We may not be able to solve them, but at 
least let's be the honest broker.
    The second point is we need to gain the moral high ground. 
Coercion, torture, extorting rendition to countries that 
practice torture, Guantanamo, we need to reverse those 
policies; not easy to do, they are problems.
    Those are the big picture, but in terms of the kind of 
interest of the committee, which is really focused on homeland 
security, one thing I think we need to be cognizant of, is that 
if we get attacked again the likely weapon is hydrogen 
peroxide, industrial strength hydrogen peroxide. This was the 
weapon of choice on July 7, 2005, in the train bombings in the 
summer of 2006, in the attempt to bomb Ramstein Air Force Base 
in Germany in 2007. This is not the stuff you buy in your local 
beauty parlor. It is industrial strength hydrogen peroxide, but 
this is something that controls need to be placed on.
    Streamlining obviously the clearance process that you 
mentioned, Chair Harman, very important. Learning to speak 
their language, as Larry Wright has pointed out. One thing that 
I think we need to do better about is the universal database 
that looks at all insurgents, terrorists, foreign fighters 
across all theaters, and looks at the facilitative notes. This 
would be obviously very useful from an intelligence point of 
view. What are the web sites with the recruiting, who are the 
recruiters, what are the financiers? But a very key part of it 
is who are the key clerics, because my intuition is there is a 
very limited number of clerics who are producing a 
disproportionately large number of suicide bombers. This would 
be very useful from a policy point of view because armed with 
that information you could go to the Pakistanis and say, look, 
these five madrassas are producing, you know, 50 percent of the 
suicide attackers in Afghanistan; we are not saying that just 
because it is our problem but this is all going to blow back on 
you and you need to close down the clerics.
    So those are just some ideas.
    Ms. Harman. Thank you. Mr. Wright.
    Mr. Wright. It is hard to follow Peter on these kind of 
things, but I will not talk so much about the diplomatic or 
political overtures as the kind of moral tone that I think this 
new administration, whichever it might be, has an opportunity 
to really change the narrative about America's role and 
addressing, strongly addressing such things as torture, 
Guantanamo, making sure that there is a clean slate and that 
that picture has gotten--and a second thing is establishing a 
sense of fairness that, especially in the Middle East, this 
profound conception about America that it is no longer a fair 
partner. We have to take steps to demonstrate our equanimity in 
that regard.
    Finally, one thing that we haven't touched on is in terms 
of our dependence on oil, which is underlying all of this, the 
largest customer in the whole world for petroleum is the 
American military, and it is a little unseemly for it to be 
fighting a war for oil as the main customer. I think greening 
the American military is something that has not been discussed 
in the body politics very much, but it could do much to save 
American lives.
    Ms. Harman. Thank you very much. There is enormous food for 
thought. We could keep this hearing going all day, but we 
won't.
    Mr. Reichert for 5 minutes.
    Mr. Reichert. Thank you, Madam Chair. I want to focus just 
on one thing. There was a comment made about gathering intel 
universal database from Mr. Bergen. You also mentioned that we 
need to change our strategy in Afghanistan. I wonder, too, how 
much we must change our strategy in the way that we collect 
intelligence, what intelligence we collect. Are either of you 
familiar with fusion centers that exist here and in their role 
in communicating with the Muslim community, and are we doing 
enough of that in helping to educate, rather than just being 
entirely focused on collecting the intel and disseminating 
intelligence? Are we doing within our own efforts here, within 
the United States, enough to help reach out to those 
communities?
    Mr. Wright. I think the fusion--the movement of 
intelligence into police work has been a dramatic shift in our 
ability to gather intelligence at the root. NYPD I think is the 
model for this. This is, I think, above any other intelligence 
organization in the whole country. I think they do the best job 
at what they do. I recently have been able to talk to the LAPD 
as well, and I can see there is a tremendous amount of really 
intelligent police work going on at the grassroots level, which 
is where you are really going to find true intelligence.
    As a friend of mine who is a former FBI agent who is one of 
the eight Arabic-speaking members of the FBI, agents in the FBI 
before 9/11, told me, if you are suspicious of your neighbor 
and you are an Arab in Detroit, who are you going to go to, the 
FBI, which may throw him in Guantanamo, or some guy you went to 
high school with who is on the police force, who understands 
the community, who speaks the language? It seems very clear to 
me that this is a movement that we should really encourage.
    Mr. Bergen. I completely agree with that, and as Chair 
Harman pointed out the Torrance, California case was broken by 
local cops, not the Feds. I think NCTC has been quite a success 
in terms of breaking down the walls. So I hate to be positive, 
but--thank you.
    Mr. Reichert. As far as the splintering of al Qaeda, does 
that change your intelligence operations and intelligence-
gathering operations at all?
    Mr. Wright. It offers a tremendous opportunity. If we had 
the capacity, if we had the kind of skilled people who could 
actually penetrate their organizations, what a great moment, 
but we simply don't have those people.
    Mr. Reichert. Thank you, Madam Chair. I yield.
    Ms. Harman. Thank you, Mr. Reichert.
    I would just observe that your questions and the answers 
really reinforce the focus of this subcommittee for the last 2 
years. Our view has been that it is the local cop, not some 
bureaucrat in Washington who will unravel the next plot. It is 
imperative that to the extent we have accurate, actionable, and 
timely intelligence we get it down to that person. In addition, 
obviously if folks in our community see something that they get 
it up to the Federal level, and just breaking down the old 
stovepipes and trying to stop them from being formed in the new 
Homeland Security Department has taken a lot of blood, sweat, 
and tears. We are not totally successful yet, but that is a key 
objective that we all have.
    Mr. Carney.
    Mr. Carney. Thank you, Madam Chair. Once again, gentlemen, 
thank you for coming here today. I wish I could have my 
students get college credit for this; it is certainly 
worthwhile.
    Ms. Harman. We will give you college credit for this, Mr. 
Carney.
    Mr. Carney. Wow, only 2 more years, I get my degree then. 
Thanks, ma'am.
    Continuing on with the train of thought with the domestic 
intelligence and how important it is to recruit into the 
community here in the country and abroad certainly, but 
thinking domestically, would it be a good idea or do you see a 
utility in creating sort of an MI5 organization in the United 
States?
    Mr. Wright. I am opposed to any further reorganization of 
the FBI. I think the community, the intelligence community, has 
been shaken by extensive reorganization. The last thing it 
needs is to have the boxes rearranged one more time.
    Mr. Bergen. I agree with that.
    Mr. Carney. Yeah, as a committee that overlooks the 
Homeland Security Department I think we probably all agree to 
that.
    I do want to kind of pursue a little further what my good 
friend Congressman Dent was talking about in the sort of 
radicalization of the U.S. prisons. We have an increasing 
shortage of guards now in prisons and, you know, frankly we 
have less oversight. I mean who is there, the guards that are 
there now are doing a tremendous job and God bless them, but 
the fact of the matter is we are not putting resources into 
kind of the guards in the prisons that we need to now. Is that 
a mistake? Is that going to bite us in terms of an environment 
for radicalization?
    Mr. Wright. This is outside my area.
    Mr. Bergen. It is really outside my area, sir.
    Mr. Carney. Okay. All right, one final question, I was very 
fascinated to see Dr. Fadl's change of heart as well as his 
mind. So I guess what is the score now? I mean perfect Muslims 
what, taqfiris, what?
    Mr. Wright. Well, the taqfir heresy is at the root of al 
Qaeda, and it is the idea that one Muslim can say that another 
is not a Muslim and therefore I can kill you. Anwar Sadat was 
the first victim of that kind of thinking. It goes back to the 
early years of Islam, this ancient heresy. I think it is 
something that Islam is struggling against right now. I think 
it is also the Achilles heel for al Qaeda because Muslims are 
beginning to realize that the greatest danger imposed to their 
religion is the radical element inside its own theology that 
attacks other Muslims.
    Mr. Bergen. Yeah, encoded in the genes of the DNA of these 
al Qaeda groups is the self-destruction, precisely this taqfiri 
doctrine, because once you decide that--only God could decide 
who is a true Muslim. They abrogated to themselves this 
decision, and obviously most Muslims don't agree with this. So 
in terms of the score, I think the score of the taqfiris are 
doing pretty badly. It interesting going inside Saudi Arabia 
now, the Saudi government had a huge wakeup call May 2003 and 
has done a 180-degree turn on this question. They are referring 
to the al Qaeda groups as either deviants or taqfiris, because 
they understand that that is the way to explain this to their 
populations. So I think that they are losing this long-term 
etiological battle. But going back to Pakistan, clearly as a 
military or insurgent or terrorist organization, they remain 
viable, which is a threat to us.
    Mr. Carney. Now how do we help facilitate this belief 
throughout the Muslim--is it better if it doesn't have our 
imprimatur on it actually?
    Mr. Bergen. I think that it is because of that problem.
    Mr. Carney. So what is worse than imprimatur. Thank you, 
Madam Chair. No further questions.
    Ms. Harman. Thank you.
    Mr. Shays is recognized.
    Mr. Shays. Thank you. We had a hearing before September 11 
and there was a number signed from the Nation and I asked what 
was the fear was. The fear was they were dedicated to create an 
ultra biological weapon to wipe out things as we know it. I 
looked around. There was no C-SPAN and no media that I saw. I 
have the same feelings today.
    So one of my questions is how do you get the attention of 
the American people to what you are saying without people 
thinking you are being alarmist? That is one of the questions.
    Before you answer though, I want to agree about language. 
My wife is a director of the critical languages department in 
the Department of Ed working with the State Department, Defense 
and the intelligence community. We have a huge way to go in our 
school systems. Forget our military, our State Department, our 
Government in general to reorient us as a country to begin to 
teach kids languages in schools and early on. But as a Peace 
Corps volunteer one of the values of understanding the language 
was you understood the culture. And that even eating their 
food, you understood the culture, you just learned a lot. I am 
struck by the fact that we don't work very hard at any of that.
    My last point I would like a reaction to is this, as well 
as my first question: I am amazed that somehow we talk about 
Afghanistan as one major weekly magazine said, the good war. I 
don't know what the hell is good about the war in Afghanistan. 
From my view, not based on a lot of experience and I want to 
find this out, but my prejudice is you can't move troops 
protected in Afghanistan, you got to go--if you move them by 
land, you go on small pathways that are on the sides of 
mountains that are easy to hit. Our helicopters are sitting 
ducks. You can't land fixed aircraft into some sites. When you 
travel they know, even if it is other Afghans, they know who is 
part of their tribe and who isn't.
    Tell me why this is the so-called good war. Tell me why we 
should be increasing our troops in this so-called good war. 
Tell me why that won't end up like Russia. Tell me why in the 
hell can't we get Europe to do at least 50 percent of the heavy 
lifting since they are 50 percent of the gross domestic product 
and 50 percent of the population of NATO.
    Mr. Bergen. The Soviets killed 1\1/2\ million Afghans and 
they made 5 or 6 million of them refugees. So comparing our 
efforts to anything the Soviets did I don't think is really 
accurate.
    Look at the situation----
    Mr. Shays. I don't understand that question. The question I 
am asking is: No government ever has subjugated the Afghan 
people. My question is when you bring more troops, don't they 
represent more of a target?
    Mr. Bergen. The BBC and ABC have done yearly polls for the 
last 3 years, and they have very interesting results. Eighty-
percent-favorable views of the American-led invasion 
occupation, 70-percent-favorable views of international forces, 
et cetera. So the Afghans want us to be there. It is not like 
the same situation as it was under the Soviets.
    Mr. Shays. Okay.
    Mr. Bergen. What is striking is there are 650,000 members 
of the Iraqi security service, police and army and 150,000 
soldiers. Iraq is a third of a size smaller than Afghanistan, 
with a 6 million smaller population, and a much harder terrain 
to control. Yet the Afghan army and police is 150,000, and 
60,000 U.S. and NATO troops there. We have four times more 
people in the security services in Iraq than Afghanistan, which 
is a much harder country to control. So we have an enormous 
security shortfall.
    Mr. Shays. Why do you say a much harder country to control?
    Mr. Bergen. Because it is ideally designed for guerrilla 
warfare. Desert countries are easier to control than 
mountainous countries.
    Mr. Shays. I don't understand. You are in plain sight in 
Afghanistan, people can hide in a lot of different places.
    Mr. Pascrell. That is his point.
    Mr. Shays. Your enemies can hide in different places.
    Mr. Bergen. If we want to succeed in Afghanistan we will 
have to put more forces in. We need to succeed because that is 
where al Qaeda directed 9/11 from. If we don't succeed there, 
staying in Afghanistan is going to be dangerous and costly. 
Leaving Afghanistan is going to be much more dangerous and much 
more costly.
    Mr. Shays. Tell me why NATO shouldn't be doing more?
    Mr. Bergen. I think NATO should be doing more, but they 
won't. For all sorts of historical reasons the Germans are 
reluctant to engage in warfighting. We can badger them, and 
persuade them. I think it has been a strategic failure to have 
NATO in Afghanistan. We need to just recognize it and say, we 
are going to take over the warfighting operations in the south 
and east of the country. I mean politically and financially it 
is very useful to have NATO in the frame but in terms of actual 
strategic facts it has not been a success.
    Mr. Shays. Wow. This is one Member who will vote against 
doing it if NATO doesn't do its share.
    Mr. Wright. I would like to avert to the earlier portion of 
your questions about al Qaeda and trying to make people aware. 
I think al Qaeda is going to fade away one day, but what won't 
go away is a template that al Qaeda has created, a template of 
asymmetric warfare in which small groups of people, even 
individuals are super-empowered. I spoke to a member of the 
intelligence community who talked about the possibility that 
hackers in the future would be able to put together biological 
viruses the same way they put together computer viruses now. 
Imagine the danger that that would pose to our world.
    When I think of dangerous groups, al Qaeda certainly is 
high on the risk but Aum Shinrikyo was a much more talented 
organization, a Japanese group formed by this guru that had 
been able to enlist, highly technological, varied in skills, 
personalities. If you had a group that was like that with al 
Qaeda's experience and template, then I think we would be in a 
much more dangerous situation than the one we are in.
    One day we won't see al Qaeda, but we will not see the end 
of this kind of behavior.
    Ms. Harman. Thank you very much. Mr. Pascrell is now 
recognized.
    Mr. Pascrell. Thank you very much. It has been a great 
hearing and both sides of the aisle. We can come together on a 
lot of these issues, Madam Chair, we really can.
    Mr. Bergen, thank you, and thank you, Mr. Wright, for all 
of your testimony today. I have a question, Mr. Bergen. I am 
alarmed by the statistic in your testimony which states that 41 
percent of Islamist terrorists arrested or killed in Europe and 
the United States from 1993 to 2004 were Western nationals. I 
had to read that again. Furthermore, more terrorists were 
French than the combined totals of the Pakistani and Yemeni 
terrorists.
    Am I right so far?
    Mr. Bergen. Yes.
    Mr. Pascrell. To me this highlights how we have to really 
engage because this is what you two gentlemen have been talking 
about this morning, engaging the Muslim population in the 
United States of America. They belong to different 
organizations, but they also call back home at least two or 
three times a week. We are losing the resource, we have not 
engaged them. So we want to have a real dialog, you suggest, 
and want to see them as an asset to building real homeland 
security as opposed to trying to push them to the margins of 
society and constantly looking at them as objects of suspicion 
as they seem to be doing in parts of Europe. So this is not 
just an African American Muslim question, which you pointed out 
before.
    The question I want to ask you, Mr. Bergen, is can you 
comment on that and expand on the trend in Europe and explain 
why this is happening. In the United States of America--and Mr. 
King and I jest back and forth for many, many years. I have the 
deepest respect sincerely for him. We have been on many debates 
on how do we handle and protect our neighborhoods and our 
families.
    I don't know if you have heard about the subway ads in New 
York City. Those ads present a different picture of Muslims in 
America, very different than it has been communicated before 
this. They take key words or phrases, these ads, about Islam on 
one side of the panel, such as head scarf? The Prophet 
Mohammed? Or words such as you deserve to know, along with the 
Web site address, where this was presented or created. Let me 
exaggerate and use hyperbole for a second here. We are a 
thousands miles away from engaging the Muslim communities as 
far as I am concerned. We missed the resource here.
    I wrote to the President two times about this, never got an 
answer. I write to him about less important things, and I get 
great answers. Why don't we want to engage this? Why don't we 
want to have practical application of what you two guys are 
been talking about this morning? I will go back to the 
question, would you comment, Mr. Bergen, and explain why this 
is happening?
    Mr. Bergen. Well, the study that said that 41 percent of 
terrorists arrested in a certain time frame were Western 
nationals was conducted by Bob Lieken of the Nixon Center. In a 
way it is not that surprising because as I have indicated 
earlier, you know, Pakistani madrassa graduates are not going 
to turn into effective anti-Western terrorists. Anti-Western 
terrorists who are effective are going to be people who grew up 
in the West or studied in the West. After all, Khalid Sheikh 
Mohammed, the operational commander of 9/11, studied 
engineering in North Carolina. Mohammed Atta studied, of all 
things, urban preservation in Hamburg, Germany.
    So that is just the reality. That is the threat we face. 
Lucky, the threat is much more small here in the United States 
than it is in Europe. But when you have 2,000 British citizens 
who are nationals, as the head of MI5 recently said publicly, 
who he regards as serious threats to national security, many of 
whom have links back to al Qaeda in Pakistan, that is a 
continuing, severe problem.
    Mr. Wright. The easiest way to draw the Muslim American 
community into this discussion is to hire them in police and 
intelligence positions and let them represent their communities 
within the tent rather than outside it. It would be an 
interface with the communities that you are speaking of.
    I have talked to a lot of guys in the FBI, and there are 
many of them terrific people and they have spent a lot of time 
studying this problem, but they don't have the kind of 
background to deeply understand it. I am just picking on the 
FBI because they are open about who they actually hire. This is 
a problem all across the intelligence community.
    Mr. Pascrell. I think it is a serious one. In my community, 
which is the second-largest Muslim community in the country 
other than Dearborn, Michigan, up in the Eighth District in New 
Jersey many of the police forces are heavily recruiting 
Muslims. They turn out to be terrific police officers, which 
shouldn't be a surprise. Everything is a surprise to us. This 
is bottom-up in intel and this is exactly what you are talking 
about. The British have a better handle on that than we do, I 
think, but we should be heading in this direction.
    Thank you, Madam Chair.
    Ms. Harman. The gentleman's time has expired.
    By the way, the LAPD, among other police forces, have 
liaison relationships with groups from the Muslim community, 
diverse groups, which I think is a very productive activity, 
and the FBI does this as well. I think outreach to the law-
abiding Muslim community, most of the community is law-abiding, 
as you have both pointed out, it can only do us good.
    Mr. King is recognized for a second round of questions.
    Mr. King. Thank you, Madam Chair. In addition to everything 
else, you have to listen to the extended debate between myself 
and Mr. Pascrell.
    Let me just say as far as reaching out to the Muslim 
community, I believe the NYPD has more Arabic speakers than the 
FBI. They do recruit into the Muslim community. Again, and my 
concern is that even with the active efforts they still aren't 
getting the level of cooperation they believe they should be 
getting. That is a debate we can have another time.
    I think it is fair to say that unless something 
extraordinary happened the 9/11 method of attack would be hard 
to replicate. I mean, the international dialog we have now, the 
sharing of information within all the levels of our government, 
the exchange of intelligence with foreign governments would 
make it very difficult for them to hide in open sight really 
the way they did.
    But what both of you have touched on in your testimony is 
the concern with visa waiver countries. I think it is on the 
open record right now that much of the training in the FATA has 
been given to Western Europeans, not people from Sudan or 
Somalia or Yemen but from Western Europeans.
    I do support the concept of visa waiver. Do you think we 
should be doing more to address that concern, where people 
could be coming in, people can be trained in the FATA and come 
in with perfectly clean passports, with no indication at all 
that they received this training? Is there a better way of 
showing international databases? Isn't there a way to get a 
better lead on who might be coming in and who is not?
    The second question is, if I could ask it, I don't want to 
oversimplify an already oversimplified debate, but people I 
have spoken to in the intelligence community seem to be 
becoming divided between whether it is al Qaeda Central or 
homegrown terrorists between Simok Sadrin on one side and the 
al Qaeda Central people on the other. Is that debate healthy or 
is it just going to drive us into opposite camps or does it 
serve any real purpose other than I guess any academic debate, 
or some purpose?
    So I guess two questions, visa waiver and the debate over 
centralized versus homegrown.
    Mr. Bergen. You know, I think you are right, any debate is 
healthy, but if the threat we really face right now is only 
from leaderless jihadis, I think you aren't going to have 
hearings like this in the future, because leaderless groups by 
definition don't produce very large outcomes. I mean a 
leaderless jihad operation, for instance, was the assassination 
of Theo Van Gogh, the Dutch film maker, the people involved in 
that had no connection to al Qaeda Central. Take the planes 
plot of the summer of 2006, which people were trained in the 
FATA, they did have connections to al Qaeda. If that had 
succeeded we would have had a very different conversation 
today, 1,500 people would be dead, American aviation, Canadian 
aviation, British aviation would have been the targets.
    So al Qaeda Central is still the big problem. Of course 
leaderless jihadi people become a problem when they connect 
with al Qaeda Central. So the London attackers of July 7, 2005, 
got radicalized in Britain but they became operationalized once 
they got to FATA, and it is not an either/or question.
    On the visa waiver issue, I mean there are so many 
advantages we derive from the visa waiver program. The planes 
plot demonstrates cooperation between United Kingdom and United 
States and Pakistani intelligence, will yield the kind of 
information we need to close things down. Substantially 
changing visa waiver I think would come fraught with so many 
other problems that it is probably not something we should 
interfere with.
    Mr. Wright. It was certainly important to get passenger 
manifests. That is crazy not to know who is coming in in 
advance to this country. We are not going to really know until 
we have our own intelligence inside these camps. We will never 
know who is actually there. That is where we are failing 
because we don't have the people who can do that.
    Mr. King. I think I have a minute left. You talk about 
getting passenger manifests. It is my anecdotal experience that 
European nations and European airlines are very reluctant to 
cooperate or they have to be sort of dragged along. Does that 
indicate a feeling in Europe that this is more of an American 
problem? It seems to me there are more homegrown terrorists in 
Europe, they have more of a threat than we do, and yet they 
seem very reluctant at times, not the British but some other 
countries, much more reluctant to go along with us as far as 
providing information, sharing information, certainly with 
passenger manifests.
    Mr. Wright. I don't understand this as an issue. It doesn't 
seem to rise to the privacy issues that would generate a real 
debate. We should be able to have the passenger manifests for 
our own protection. It threatens the visa waiver program that 
we don't.
    Mr. King. Thank you.
    Ms. Harman. Thank you.
    Mr. Dent is recognized.
    Mr. Dent. Thank you, Madam Chair. To follow up on 
Congressman King's comments on the manifests, it is my 
understanding currently that we do receive the manifests for 
planes heading into this country from Europe, for both planes 
and for people coming in by ship is my understanding that is 
currently the case.
    Mr. King. I just want to say it has been a long hard fight 
and it is a question of when they provided them and all sorts 
of privacy concerns. It has been a very difficult effort.
    Mr. Dent. Understood. I have actually been advocating 
legislation here to require manifest data for individuals 
trying to enter this country by common carrier bus or train 
just as we do for the airlines. I am just interested to follow 
up more on that point that Congressman King raised.
    Gentlemen, how does nationalism play, if at all, in the 
political development of al Qaeda? Is there a tension between 
the Saudis within the organization, like bin Laden, and the 
Egyptians, like al-Zawahiri? Do the goals of the Egyptian and 
Saudi al Qaeda members differ in any appreciable way, in your 
view?
    Mr. Wright. Yes, they do. Al Qaeda is essentially an 
umbrella organization with a number of different nationalist 
groups, such as Zawahiri's Al Jihad, came together with an 
internationalist agenda, but the fact is that those nationalist 
goals still remain inside the different nationalist groups. 
There has been a lot of resentment in al Qaeda against the 
Egyptian dominance of that organization. It is from the 
beginning until now essentially an Egyptian organization with a 
Saudi head.
    So I think that in the event of the death or capture of bin 
Laden, I foresee al Qaeda fracturing once again into a group of 
essentially nationalist groups.
    Mr. Bergen. That is an incredibly important point, because 
capturing or killing bin Laden is not simply that he is 
producing all the major strategy for the jihadi movement and al 
Qaeda itself, but when he goes no one could hold this fractured 
coalition together. No one has the authority that he does. 
Ayman al-Zawahiri's leadership of even the Egyptian jihadis is 
contested within the group. So you take bin Laden out, the 
whole thing just falls apart. You take Ayman al-Zawahiri out, 
it continues to operate. It is more likely that we will find 
Ayman al-Zawahiri in the next 5 years than bin Laden because 
Zawahiri is taking more risks, issuing more tapes, being more 
public.
    Mr. Dent. So I guess my question to both of you then is 
what are the political goals of al Qaeda at this juncture?
    Mr. Wright. Honestly, al Qaeda doesn't have a political 
agenda. If you look in what is called the Harmony documents, 
there are thousands and thousands----
    Mr. Dent. I thought the agenda was the caliphate from 
Iraq----
    Mr. Wright. That is a fantasy. It is I think--imagine 
trying to bring all the Christian churches together into one 
organization. Islam itself is just as diverse as Christianity, 
with many different branches and different legal 
understandings. It is not going to be reorganized into one 
single entity.
    But there is no reason for America to try to stand against 
the establishment of a caliphate. It is not something that I 
think is achievable. Second, I don't think last Caliph was a 
pro-American. I don't think that there is any reason to think 
it threatens American interest.
    But the real failure of al Qaeda is that it does not have 
any political agenda at all, and I think this is an area where 
we could really press al Qaeda because every time radical Islam 
has gotten into power it has been a catastrophe.
    Like the crash test, some of the dummies survive, but the 
car is always wrecked. Its only interest is in purification. 
That is the goal of radical Islam, and you see it in the 
Taliban, you see it in Sudan. Wherever radical Islam gains 
power their main goal is to purify the Muslims who are there, 
not to govern.
    Mr. Dent. So that in effect their political strategy is to 
purify and not to govern. The political strategy is 
purification, and there is no sense of governance or a 
political agenda to advance the cause of the people.
    Mr. Wright. Well, like al Qaeda takes advantage of things. 
Bin Laden on a couple of occasions has criticized the United 
States for not signing the Kyoto Protocol. Well, what is al 
Qaeda's environmental policy? Where does he stand on education, 
health, welfare?
    They have never articulated these things and never will, 
because they don't have any idea about what they want if they 
really took power. The fundamental problems of the Muslim 
world, health, illiteracy, joblessness, gender, apartheid, 
these are questions that al Qaeda has no answers for.
    Mr. Bergen. I agree with all that. Their goal is Taliban-
style theocracies from Indonesia to Morocco, and there is no al 
Qaeda minister for economics or health or social welfare. An al 
Qaeda hospital is kind of an oxymoronic concept. They just have 
no ability to engage in real world politics.
    One interesting note because you have been in Pakistan 
recently, Congressman, in the North-West Frontier Province, 
which was run by the MMA, the group of Islamist parties, in a 
recent election those parties were defeated in sort of a 
massive loss of seats. So as Larry said, when they come to 
power it doesn't last very long usually.
    Mr. Dent. Thank you. I yield back.
    Ms. Harman. Thank you, Mr. Dent, and thanks to all our 
Members for staying a long time, asking excellent questions, 
and especially to our witnesses. Both of you were fascinating. 
We wanted you both here, we have had two fun-filled hours of 
questions. I would, just before closing the hearing, like to 
make a couple observations.
    First of all, the fact, at least to me, that al Qaeda has 
no political agenda may not make it less dangerous. It may make 
it more dangerous. The fact that in the interest of so-called 
purification that people are willing to blow themselves up 
means that deterrence doesn't work, and it means that rational 
behavior is not to be anticipated. This is different or at 
least larger in scale, so far as I can tell, than any threat of 
this kind we have confronted in history. So al Qaeda may not 
want to take over the U.S. Government, but al Qaeda, in the 
interest of purification and vanquishing a corrupt people with 
bad values, may end up seriously destabilizing this country, 
should it ever be able to get in here and make some of the 
Nation's terrorist cells operational. That is just one 
observation.
    The second observation, you both said how critical it is to 
restore the moral authority of the United States. I couldn't 
agree more. I think both candidates for President have, to 
differing degrees, but both of them have begun to address this 
and want to close Guantanamo and change some of the other 
policies. I think that will be critically important.
    It is true, as one of the Members said, that we have to win 
the argument here. I think without restoring our moral 
authority we give them, them the al Qaeda recruiters, the 
ability to say that America doesn't stand for something 
special, America in fact stands for things that are degrading. 
To recruit millions of mindless, I forget what your word was, 
Peter, functional illiterates who are willing to blow 
themselves up.
    So I think if President McBama calls me on day 1 I am going 
to say that my highest priority is to restore the moral 
authority of the United States, and there are specific actions 
that can be taken by either person, should he be elected 
President, and I would hope both of them will proceed this way.
    So this was fascinating. Your work I know continues, your 
writings will continue. We will read them with great interest, 
and we welcome you back here any time. You really add value to 
the work of this subcommittee.
    The hearing stands adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
